<html>
<title> - H.R. 2250, THE EPA REGULATORY RELIEF ACT OF 2011, AND H.R. 2681, THE CEMENT SECTOR REGULATORY RELIEF ACT OF 2011</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




  H.R. 2250, THE EPA REGULATORY RELIEF ACT OF 2011, AND H.R. 2681, THE 
              CEMENT SECTOR REGULATORY RELIEF ACT OF 2011

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON ENERGY AND POWER

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               ----------                              

                           SEPTEMBER 8, 2011

                               ----------                              

                           Serial No. 112-82


      Printed for the use of the Committee on Energy and Commerce
                        energycommerce.house.gov

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






 H.R. 2250, THE EPA REGULATORY RELIEF ACT OF 2011, AND H.R. 2681, THE 
              CEMENT SECTOR REGULATORY RELIEF ACT OF 2011

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON ENERGY AND POWER

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 8, 2011

                               __________

                           Serial No. 112-82



      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

74-205 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

JOE BARTON, Texas                    HENRY A. WAXMAN, California
  Chairman Emeritus                    Ranking Member
CLIFF STEARNS, Florida               JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky                 Chairman Emeritus
JOHN SHIMKUS, Illinois               EDWARD J. MARKEY, Massachusetts
JOSEPH R. PITTS, Pennsylvania        EDOLPHUS TOWNS, New York
MARY BONO MACK, California           FRANK PALLONE, Jr., New Jersey
GREG WALDEN, Oregon                  BOBBY L. RUSH, Illinois
LEE TERRY, Nebraska                  ANNA G. ESHOO, California
MIKE ROGERS, Michigan                ELIOT L. ENGEL, New York
SUE WILKINS MYRICK, North Carolina   GENE GREEN, Texas
  Vice Chairman                      DIANA DeGETTE, Colorado
JOHN SULLIVAN, Oklahoma              LOIS CAPPS, California
TIM MURPHY, Pennsylvania             MICHAEL F. DOYLE, Pennsylvania
MICHAEL C. BURGESS, Texas            JANICE D. SCHAKOWSKY, Illinois
MARSHA BLACKBURN, Tennessee          CHARLES A. GONZALEZ, Texas
BRIAN P. BILBRAY, California         JAY INSLEE, Washington
CHARLES F. BASS, New Hampshire       TAMMY BALDWIN, Wisconsin
PHIL GINGREY, Georgia                MIKE ROSS, Arkansas
STEVE SCALISE, Louisiana             ANTHONY D. WEINER, New York
ROBERT E. LATTA, Ohio                JIM MATHESON, Utah
CATHY McMORRIS RODGERS, Washington   G.K. BUTTERFIELD, North Carolina
GREGG HARPER, Mississippi            JOHN BARROW, Georgia
LEONARD LANCE, New Jersey            DORIS O. MATSUI, California
BILL CASSIDY, Louisiana              DONNA M. CHRISTENSEN, Virgin 
BRETT GUTHRIE, Kentucky              Islands
PETE OLSON, Texas                    KATHY CASTOR, Florida
DAVID B. McKINLEY, West Virginia
CORY GARDNER, Colorado
MIKE POMPEO, Kansas
ADAM KINZINGER, Illinois
H. MORGAN GRIFFITH, Virginia

                                 7_____

                    Subcommittee on Energy and Power

                         ED WHITFIELD, Kentucky
                                 Chairman
JOHN SULLIVAN, Oklahoma              BOBBY L. RUSH, Illinois
  Vice Chairman                        Ranking Member
JOHN SHIMKUS, Illinois               JAY INSLEE, Washington
GREG WALDEN, Oregon                  KATHY CASTOR, Florida
LEE TERRY, Nebraska                  JOHN D. DINGELL, Michigan
MICHAEL C. BURGESS, Texas            EDWARD J. MARKEY, Massachusetts
BRIAN P. BILBRAY, California         ELIOT L. ENGEL, New York
STEVE SCALISE, Louisiana             GENE GREEN, Texas
CATHY McMORRIS RODGERS, Washington   LOIS CAPPS, California
PETE OLSON, Texas                    MICHAEL F. DOYLE, Pennsylvania
DAVID B. McKINLEY, West Virginia     CHARLES A. GONZALEZ, Texas
CORY GARDNER, Colorado               HENRY A. WAXMAN, California (ex 
MIKE POMPEO, Kansas                      officio)
H. MORGAN GRIFFITH, Virginia
JOE BARTON, Texas
FRED UPTON, Michigan (ex officio)

                                  (ii)
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Ed Whitfield, a Representative in Congress from the 
  Commonwealth of Kentucky, opening statement....................    17
    Prepared statement...........................................    18
Hon. Joe Barton, a Representative in Congress from the State of 
  Texas, opening statement.......................................    20
    Prepared statement...........................................    21
Hon. John Sullivan, a Representative in Congress from the State 
  of Oklahoma, opening statement.................................    23
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................    33
Hon. Cathy McMorris Rodgers, a Representative in Congress from 
  the State of Washington, opening statement.....................    34
Hon. Pete Olson, a Representative in Congress from the State of 
  Texas, opening statement.......................................    35
    Prepared statement...........................................    36
Hon. H. Morgan Griffith, a Representative in Congress from the 
  Commonwealth of Virginia, opening statement....................    37
Hon. Bobby L. Rush, a Representative in Congress from the State 
  of Illinois, opening statement.................................   141
Hon. John D. Dingell, a Representative in Congress from the State 
  of Michigan, prepared statement................................   149

                               Witnesses

Regina McCarthy, Assistant Administrator for Air and Radiation, 
  Environmental Protection Agency................................   130
    Prepared statement...........................................   132
Daniel M. Harrington, President and CEO, Lehigh Hanson, Inc......   182
    Prepared statement...........................................   184
James A. Rubright, CEO, RockTenn Company.........................   188
    Prepared statement...........................................   190
    Answers to submitted questions...............................   316
Paul Gilman, Chief Sustainability Officer, Covanta Energy 
  Corporation....................................................   195
    Prepared statement...........................................   197
John D. Walke, Clean Air Director and Senior Attorney, Natural 
  Resources Defense Council......................................   214
    Prepared statement...........................................   216
Eric Schaeffer, Director, Environmental Integrity Project........   246
    Prepared statement...........................................   248
Peter A. Valberg, Principal, Gradient Corporation................   252
    Prepared statement...........................................   254
Todd Elliott, General Manager, Acetate, Celanese Corporation.....   257
    Prepared statement...........................................   259

                           Submitted Material

H.R. 2250, A Bill to provide additional time for the 
  Administrator of the Environmental Protection Agency to issue 
  achievable standards for industrial, commercial, and 
  institutional boilers, process heaters, and incinerators, and 
  for other purposes, submitted by Mr. Whitfield.................     2
H.R. 2681, A Bill to provide additional time for the 
  Administrator of the Environmental Protection Agency to issue 
  achievable standards for cement manufacturing facilities, and 
  for other purposes, submitted by Mr. Whitfield.................    10
Letter, dated August 25, 2011, from Anthony Jacobs, Special 
  Assistant to the International President, Acting Director of 
  Legislative Affairs, International Brotherhood of Boilermakers, 
  Iron Ship Builders, Blacksmiths, Forgers & Helpers, to 
  committee leadership, submitted by Mr. Sullivan................    24
Letter, dated September 1, 2011, from Paul A. Yost, Vice 
  President, Energy and Resources Policy, National Association of 
  Manufacturers, to Mr. Upton, submitted by Mr. Sullivan.........    26
Letter, dated July 28, 2011, from 25 Senators to House 
  leadership, submitted by Mr. Sullivan..........................    28
Letter, dated September 7, 2011, from R. Bruce Josten, Executive 
  Vice President, Government Affairs, Chamber of Commerce of the 
  United States of America, to committee leadership, submitted by 
  Mr. Sullivan...................................................    32
Letter, dated September 6, 2011, from the National Association of 
  Manufacturers to House and Senate leadership, submitted by Mr. 
  Griffith.......................................................    38
Letter, dated July 5, 2011, from Cal Dooley, President and CEO, 
  American Chemistry Council, to Mr. Upton, submitted by Mr. 
  Griffith.......................................................    43
Letter, dated June 28, 2011, from Donna Harman, President and 
  Chief Executive Officer, American Forest & Paper Association, 
  and Robert Glowinski, President, American Wood Council, to 
  committee and subcommittee leadership, submitted by Mr. 
  Griffith.......................................................    44
Letter, undated, from James Valvo, Director of Government 
  Affairs, Americans for Prosperity, to Mr. Griffith, submitted 
  by Mr. Griffith................................................    46
Letter, dated July 1, 2011, from Bill Perdue, Vice President, 
  Regulatory Affairs, American Home Furnishings Alliance, to 
  committee and subcommittee leadership submitted by Mr. Griffith    48
Letter, dated September 7, 2011, from Jolene M. Thompson, Senior 
  Vice President, American Municipal Power, Inc., and Executive 
  Director, Ohio Municipal Electric Association, to committee and 
  subcommittee leadership, submitted by Mr. Griffith.............    51
Letter, dated July 15, 2011, from Edward R. Hamberger, President 
  and Chief Executive Officer, Association of American Railroads, 
  to committee and subcommittee leadership, submitted by Mr. 
  Griffith.......................................................    54
Letter, dated July 14, 2011, from Robert E. Cleaves, President 
  and CEO, Biomass Power Association, to committee and 
  subcommittee leadership, submitted by Mr. Griffith.............    56
Letter, dated July 1, 2011, from Alexander Toeldte, President and 
  CEO, Boise, Inc., to committee and subcommittee leadership, 
  submitted by Mr. Griffith......................................    58
Statement, dated June 22, 2011, of Business Roundtable, submitted 
  by Mr. Griffith................................................    59
Letter, dated July 8, 2011, from R. Bruce Josten, Executive Vice 
  President, Government Affairs, Chamber of Commerce of the 
  United States of America, to committee leadership, submitted by 
  Mr. Griffith...................................................    61
Letter, dated July 7, 2011, from Audrae Erickson, President, Corn 
  Refiners Association, to committee and subcommittee leadership, 
  submitted by Mr. Griffith......................................    62
Letter, dated July 20, 2011, from Robert D. Bessette, President, 
  Council of Industrial Boiler Owners, to committee and 
  subcommittee leadership, submitted by Mr. Griffith.............    64
Letter, dated August 5, 2011, from Thomas S. Howard, Vice 
  President, Government Relations, Domtar, to committee and 
  subcommittee leadership, submitted by Mr. Griffith.............    66
Letter, dated July 5, 2011, from Florida State Council, 
  International Association of Machinists & Aerospace Workers, to 
  committee and subcommittee leadership, submitted by Mr. 
  Griffith.......................................................    68
Letter, dated July 1, 2011, from Jose F. Alvarez, Executive Vice 
  President, Operations, and General Manager, Sugar Cane Growers 
  Cooperative of Florida, on behalf of the Florida Sugar Industry 
  and the sugarcane processors in Texas and Hawaii, to committee 
  and subcommittee leadership, submitted by Mr. Griffith.........    70
Letter, dated June 30, 2011, from Paul Cicio, President, 
  Industrial Energy Consumers of America, to committee and 
  subcommittee leadership, submitted by Mr. Griffith.............    72
Statement, dated August 29, 2011, of Edwin D. Hill, International 
  President, International Brotherhood of Electrical Workers, 
  submitted by Mr. Griffith......................................    74
Letter, dated July 14, 2011, from Ann Wrobleski, Vice President, 
  Global Government Relations, International Paper, to commmittee 
  and subcommittee leadership, submitted by Mr. Griffith.........    75
Letter, dated July 13, 2011, from Mike Blosser, Vice President, 
  Environment, Health and Safety, Louisiana-Pacific Corporation, 
  to committee and subcommittee leadership, submitted by Mr. 
  Griffith.......................................................    76
Letter, dated July 7, 2011, from Dirk J. Krouskop, Vice 
  President, Safety, Health and Environment, MeadWestvaco 
  Corporation, to Mr. Upton, submitted by Mr. Griffith...........    78
Letter, dated July 13, 2011, from Paul A. Yost, Vice President, 
  Energy and Resources Policy, National Association of 
  Manufacturers, submitted by Mr. Griffith.......................    79
Letter, dated July 11, 2011, from Raymond J. Poupore, Executive 
  Vice President, National Construction Alliance II, to Mr. 
  Griffith, submitted by Mr. Griffith............................    81
Letter, dated July 6, 2011, from Susan Eckerly, Senior Vice 
  President, Public Policy, National Federation of Independent 
  Business, to committee and subcommittee leadership, submitted 
  by Mr. Griffith................................................    83
Letter, dated July 11, 2011, from Thomas A. Hammer, President, 
  National Oilseed Processors Association, to committee and 
  subcommittee leadership, submitted by Mr. Griffith.............    85
Letter, dated July 15, 2011, from Bruce J. Parker, CEO and 
  President, National Solid Wastes Management Association, to 
  committee and subcommittee leadership, submitted by Mr. 
  Griffith.......................................................    87
Letter, dated June 30, 2011, from Daniel Moss, Senior Manager, 
  Government Relations, Society of Chemical Manufacturers and 
  Affiliates, to committee and subcommittee leadership, submitted 
  by Mr. Griffith................................................    89
Letter, dated August 3, 2011, from Lewis F. Gossett, President 
  and CEO, South Carolina Manufacturers Alliance, to committee 
  and subcommittee leadership, submitted by Mr. Griffith.........    91
Letter, dated July 18, 2011, from Richard A. (Tony) Bennett, 
  Chairman, Texas Forest Industries Council, to committee and 
  subcommittee leadership, submitted by Mr. Griffith.............    93
Letter, dated July 15, 2011, from Joseph J. Croce, Director of 
  Environmental Health, Safety and Security, Virginia 
  Manufacturers Association, to committee and subcommittee 
  leadership, submitted by Mr. Griffith..........................    95
Letter, dated July 26, 2011, from Jeffrey G. Landin, President, 
  Wisconsin Paper Council, to committee and subcommittee 
  leadership, submitted by Mr. Griffith..........................    97
Study, dated September 2011, titled ``Economic Impact of Pending 
  Air Regulations on the U.S. Pulp and Paper Industry,'' by the 
  American Forest & Paper Association, submitted by Mr. Griffith.   101
Letter, dated May 6, 2011, from Virginia Aulin, Vice President, 
  Corporate Affairs, Boise, Inc., to Mr. Walden, submitted by Mr. 
  Walden.........................................................   158
Letter, dated July 15, 2011, from Joe Gonyea III, Timber Products 
  Company, to Mr. Walden, submitted by Mr. Walden................   159
Letter, dated July 18, 2011, from Grady Mulbery, Vice President, 
  Composite Manufacturing, Roseburg Forest Products, to Mr. 
  Walden, submitted by Mr. Walden................................   161
Analysis, ``Overview Impact of Existing and Proposed Regulatory 
  Standards on Domestic Dement Capacity,'' dated January 2011, by 
  the Portland Cement Association, submitted by Mr. Sullivan.....   271

 
 H.R. 2250, THE EPA REGULATORY RELIEF ACT OF 2011, AND H.R. 2681, THE 
              CEMENT SECTOR REGULATORY RELIEF ACT OF 2011

                              ----------                              


                      THURSDAY, SEPTEMBER 8, 2011

                  House of Representatives,
                  Subcommittee on Energy and Power,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:34 a.m., in 
room 2322 of the Rayburn House Office Building, Hon. Ed 
Whitfield (chairman of the subcommittee) presiding.
    Members present: Representatives Whitfield, Sullivan, 
Shimkus, Walden, Terry, Burgess, Bilbray, Scalise, McMorris 
Rodgers, Olson, McKinley, Gardner, Pompeo, Griffith, Barton, 
Rush, Inslee, Castor, Dingell, Markey, Green, Doyle, and Waxman 
(ex officio).
    Staff present: Charlotte Baker, Press Secretary; Maryam 
Brown, Chief Counsel, Energy and Power; Allison Busbee, 
Legislative Clerk; Cory Hicks, Policy Coordinator, Energy and 
Power; Heidi King, Chief Economist; Ben Lieberman, Counsel, 
Energy and Power; Mary Neumayr, Senior Energy Counsel, 
Oversight/Energy; Chris Sarley, Policy Coordinator, Environment 
and Economy; Peter Spencer, Professional Staff Member, 
Oversight; Alison Cassady, Democratic Senior Professional Staff 
Member; Greg Dotson, Democratic Energy and Environment Staff 
Director; Caitlin Haberman, Democratic Policy Analyst; and 
Alexandra Teitz, Democratic Senior Counsel, Energy and 
Environment.
    Mr. Whitfield. I would like to call this hearing to order 
this morning. This is a hearing on two pieces of legislation: 
H.R. 2681, the Cement Sector Regulatory Relief Act of 2011, and 
H.R. 2250, the EPA Regulatory Relief Act of 2011.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  OPENING STATEMENT OF HON. ED WHITFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF KENTUCKY

    Mr. Whitfield. I would like to commend my colleagues, Mr. 
Sullivan, who is also the vice chair of this subcommittee, and 
he is sponsoring the cement bill, and then Mr. Morgan Griffith 
of Virginia is sponsoring the boiler bill, and I want to thank 
them for their work on these two pieces of legislation, and of 
course, we are pleased that Representatives Ross and 
Butterfield from the full committee are joining as cosponsors 
on this legislation, and we look forward to working with them 
as we move forward.
    Now, some people have characterized these pieces of 
legislation as regulatory rollbacks, and I would say quite the 
contrary. Both the cement and the boiler bills allow, and in 
fact require, that new emissions controls be implemented, but 
they replace unrealistic targets and timetables with achievable 
ones, and we all know that the EPA was acting under duress, a 
court order, and had to finalize these rules much sooner than 
they had intended to do, and we do not believe they had 
adequate time to consider all aspects of the impact of these 
regulations.
    I would also like to say that tonight President Obama is 
going to be talking to us, and we know that high on his agenda, 
he is looking at ways to create jobs in America, and we just 
came back from our August work period, and it was very clear 
out in the country that one of the reasons jobs are not being 
created in America today is because of uncertainty, and 
uncertainty is coming from three sources: number one, the 
health care bill, of which 8,700 pages of regulations have 
already been written but it doesn't go into effect until 2014, 
so no one really knows what impact that is going to have on 
companies; number two, the regulations relating to the 
financial industry, the increase of capital requirements has 
made it more difficult to obtain loans; and then number three, 
this EPA has been so aggressive. I could read the litany of 
regulations but there is great uncertainty out there about 
these regulations. We know they are costly. We know they are 
costing jobs, and all of this is creating obstacles for our 
opportunities to produce jobs for America, and so that is what 
this is all about, and so I look forward to the testimony of 
our witnesses.
    [The prepared statement of Mr. Whitfield follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Whitfield. At this time I would like to yield my time 
to Mr. Barton.
    Mr. Barton. How much time do I have, Mr. Chairman? Is that 
2 minutes? Am I supposed to yield to Mr. Sullivan? OK.

   OPENING STATEMENT OF HON. JOE BARTON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Well, thank you for holding the hearing today on these two 
issues. I support both bills. I am glad we have our Deputy 
Administrator from the EPA here. She is a very knowledgeable 
person and has interacted in a positive manner with the 
committee and the subcommittee, and we appreciate her being 
here again today.
    I do think, though, that these bills are necessary. I do 
think that the EPA has issued a plethora of regulations, 
whether intended or not, that have the actual effect of 
reducing jobs and preventing jobs from being created in the 
American economy. That is not to say that there might not be 
some good that would come out of implementation of these 
regulations, but I think it is yet to be determined that that 
good would offset the negative immediate cost in terms of 
economic decline and loss of jobs.
    So I look forward to hearing from our witnesses and I 
certainly look forward to hearing Ms. McCarthy's testimony.
    With that, I yield the balance of my time to Mr. Sullivan.
    [The prepared statement of Mr. Barton follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
 OPENING STATEMENT OF HON. JOHN SULLIVAN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF OKLAHOMA

    Mr. Sullivan. Thank you, Mr. Barton. Thank you, Mr. 
Chairman.
    Chairman Whitfield, thank you for holding this important 
hearing today. Both the EPA Regulatory Relief Act and the 
Cement Sector Regulatory Relief Act of 2011 seek to do what we 
need most, and that is to put a stop to the overly burdensome 
regulations that destroy jobs. Instead of a cut-your-nose-off-
to-spite-your-face approach, these bills will allow for rules 
that are both technically and economically achievable.
    Specifically, I introduced the Cement MACT legislation to 
prevent U.S. cement plant shutdowns, which directly result in 
job loss. The President is talking about jobs tonight, and I 
want to be clear: This bill is jobs. If the EPA rules go into 
effect, nearly 20,000 jobs will be lost due to plant closures 
and inflated construction costs. EPA's current rules threaten 
to shut down 20 percent of the Nation's cement manufacturing 
plants in the next 2 years, sending thousands of jobs 
permanently overseas and driving up cement and construction 
costs across the country.
    Cement is the backbone for the construction of our Nation's 
buildings, roads, bridges, tunnels and critical water and 
wastewater treatment infrastructure. For both of these bills, 
our goal is to ensure effective regulation.
    I have four letters I would like to introduce to this 
committee, and they are from the International Brotherhood of 
Boilermakers, Iron Ship Building and Blacksmith Forgers and 
Helpers, the National Association of Manufacturers, 25 Members 
of the U.S. Senate, and the U.S. Chamber of Commerce, and I 
would like to submit these four letters in support of the 
Cement Sector Regulatory Relief Act for the record.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Whitfield. Thank you.
    At this time I recognize the ranking member of the full 
committee, the gentleman from California, Mr. Waxman, for his 
opening statement.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you, Mr. Chairman.
    Cancer, birth defects, brain damage--we have long known 
that toxic air pollutants such as mercury, arsenic, dioxin, 
lead, and PCBs can cause these serious health effects.
    So when Congress passed the Clean Air Act in 1970, we 
included section 112 to address the public health threat posed 
by hazardous air pollutants. EPA was required to regulate 
substances that even at low levels of exposure cause cancer, 
reproductive disorders, neurological effects, or other serious 
illnesses.
    Unfortunately, over the next 20 years, it became clear that 
the 1970 law was not working. Out of the scores of known toxic 
air pollutants, only eight pollutants were listed as hazardous 
and only seven were regulated. In 1986, industry reported that 
more than 70 percent of pollution sources were using no 
pollution controls.
    In 1990, we fixed section 112 on a bipartisan basis to 
deliver the public health protection the American people 
wanted. The new program was designed to make EPA's job simpler. 
Instead of requiring laborious pollutant-by-pollutant risk 
assessments, Congress listed 187 toxic air pollutants and 
directed EPA to set standards for categories of sources. The 
standards have to require use of the maximum achievable control 
technology. For existing sources, this means that the emission 
standard has to be at least as clean as the average emissions 
levels achieved by the best performing 12 percent of similar 
sources.
    This approach has worked well. EPA will testify today that 
industrial emissions of carcinogens and other highly toxic 
chemicals have been reduced by 1.7 million tons each year 
through actions taken by more than 170 industries. EPA has 
reduced pollution from dozens of industrial sectors, from boat 
manufacturing to fabric printing, from lead smelters to 
pesticide manufacturing.
    But a few large source categories still have not been 
required to control toxic air pollution due to delays and 
litigation. These include utilities, industrial boilers and 
cement plants. EPA's efforts to finally reduce toxic air 
pollution from these sources are long, long overdue.
    The bills we consider today would block and indefinitely 
delay EPA's efforts to make good on a 40-year-old promise to 
the American people that toxic air pollutants will be 
controlled. They would also rewrite the MACT standards once 
again, this time to weaken the protections and set up new 
hurdles for EPA rules. We are told that these bills simply give 
EPA the time they requested to get the rules right. That is 
nonsense.
    EPA asked the court to allow them until April 2012 to issue 
the boiler rules. The boiler bill nullifies the existing rules 
and prohibits EPA from issuing new rules before March 2013 or 
later, assuming enactment this year. The bill also allows an 
indefinite delay after that by eliminating the Clean Air Act 
deadlines for rulemaking and setting no new deadlines. The 
cement bill contains the same nullification of existing rules, 
prohibition on rulemaking, and indefinite delay of new rules, 
even though the rules are already final and in effect, and EPA 
never asked for additional time for those rules. On top of 
these delays, the bills would delay air quality improvements 
for at least 5 years after any rules were issued and 
potentially far longer. In fact there is no limit in the bill 
for how long sources may have to comply. That means that 
infants and children in our communities will continue to be 
exposed to mercury and carcinogens from these facilities until 
2018 or later.
    And we are told that these bills provide direction and 
support for EPA to add flexibility and make the rules 
achievable. In fact, the language is ambiguous, and an argument 
could be made that section 5 of the bills overrides the 
existing criteria for setting air toxic standards. If so, those 
changes are dramatic. Instead of setting numeric emissions 
limits, EPA could be required to set only work practice 
standards, and EPA might be prohibited from setting a standard 
if it couldn't be met by every existing source, even if all of 
the better-performing similar sources were meeting it. At a 
minimum, these changes guarantee substantial additional 
uncertainty and litigation, which benefits only the lawyers.
    Forty years ago, Congress determined that we must control 
toxic air pollution to protect Americans from cancer, 
neurological effects and birth defects. Today, EPA is working 
to finally implement that directive for some of the largest 
uncontrolled sources of mercury and other toxic air pollution. 
These bills would stop those efforts, allowing Americans to 
continue to breathe toxics for years or decades. That would be 
shameful.
    I hear my Republican colleagues say jobs, jobs, jobs. Let 
me repeat: birth defects, cancer, neurological diseases, unborn 
babies that will be killed from mercury, newly born babies that 
will be poisoned by these toxic air pollutants. If that is the 
legacy the Republicans want, it is a legacy I want no part of. 
Yield back my time.
    Mr. Whitfield. At this time I recognize the gentleman from 
Virginia, Mr. Griffith, for a 5-minute opening statement.
    Mr. Griffith. Thank you, Mr. Chairman. I would like to 
yield 1 minute of my time to the gentlelady from Washington, 
Ms. McMorris Rodgers.

      OPENING STATEMENT OF HON. CATHY MCMORRIS RODGERS, A 
    REPRESENTATIVE IN CONGRESS FROM THE STATE OF WASHINGTON

    Ms. McMorris Rodgers. Thank you for yielding.
    Like my colleagues, I have spent the last 5 weeks holding 
town halls, roundtable discussions, talking with small business 
owners, farmers, manufacturers, technology companies, and my 
take away is, people are quite concerned that our country is 
headed in the wrong direction, and whether I was up in Colville 
or down in Clarkston, the message is clear: the Federal 
Government is making it harder to create jobs in America. The 
frustration and uncertainty caused by the Federal Government's 
regulatory overreach is smothering any possible economic 
recovery.
    According to a study conducted by the Council of Industrial 
Boiler Owners, if left final, every billion dollars, $1 billion 
spent on mandatory upgrades to comply with the boiler MACT 
rules puts 16,000 jobs at risk. The full cost of these rules 
alone could be $14.5 billion. That is 224,000 jobs at risk.
    In eastern Washington, one of the key employers, Ponderay 
Newsprint, will be forced to spend $8 million. That is money 
that they won't spend hiring new workers.
    I thank the chairman for moving forward to these bills and 
look forward to the testimony.
    Mr. Griffith. Claiming back my time, Mr. Chairman, I would 
also yield 1 minute to the gentleman from Texas, Mr. Olson.

   OPENING STATEMENT OF HON. PETE OLSON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Olson. I thank my colleague, and thank you, Mr. 
Chairman, for holding this hearing to discuss two important 
pieces of legislation that would help rein in the Environmental 
Protection Agency that is out of control and out of touch with 
reality.
    The EPA continues to move at full speed ahead with their 
politically motivated agenda to eliminate affordable and 
reliable fuel for our Nation's energy portfolio. The overly 
burdensome regulations that we will discuss today truly reveal 
this Administration's disregard for our jobs crisis. Left 
unchecked, these EPA regulations will result in more businesses 
closing their doors and even more American jobs shipped 
overseas.
    This is why I am an original cosponsor of one of the bills 
before us, H.R. 2250, the EPA Regulatory Relief Act of 2011. 
This bill would give EPA the time that they requested to 
correct the seriously flawed boiler MACT rules and keep 
American jobs here at home.
    I thank my colleague for the time and yield back.
    [The prepared statement of Mr. Olson follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
OPENING STATEMENT OF HON. H. MORGAN GRIFFITH, A REPRESENTATIVE 
         IN CONGRESS FROM THE COMMONWEALTH OF VIRGINIA

    Mr. Griffith. Claiming back my time, Mr. Chairman, I would 
like to introduce into the record the following letters in 
support of H.R. 2250, the EPA Regulatory Relief Act of 2011, 
and I have my copy here but I believe staff has a copy for you, 
Mr. Chairman, and if I might, Mr. Chairman, go over those 
letters. We have a list of 31 different letters in the packet. 
The first one is the National Association of Manufacturers, 
which has 292 signatories from different industry groups, the 
American Chemistry Council, the American Forest and Paper 
Association--these are separate letters I am going over now--
the American Forest and Paper Association, American Wood 
Council, Americans for Prosperity, American Home Furnishing 
Alliance, American Municipal Power Inc., Ohio Municipal 
Electric Association, Association of American Railroads, 
Biomass Power Association, Boise Inc. a Business Roundtable 
statement on the introduction of the bill, Chamber of Commerce, 
Corn Refiners Association, Council of Industrial Boiler Owners, 
Domtar, the Florida State Council, the Florida Sugar Industry, 
Industrial Energy Consumers of America, the International 
Brotherhood of Electrical Workers, International Paper, 
Louisiana Pacific Corporation, MeadWestvaco Corporation, 
National Association of Manufacturers, National Construction 
Alliance, National Federation of Independent Businesses, 
National Oilseed Processors Association, National Solid Wastes 
Management Association, Society of Chemical Manufacturers and 
Affiliates, South Carolina Manufacturers Alliance, Texas Forest 
Industries Council, the Virginia Manufacturers Association and 
the Wisconsin Paper Council.
    Mr. Chairman, may those be introduced into the record?
    Mr. Whitfield. Without objection.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Griffith. Further, Mr. Chairman, I would like to 
introduce into the record a September 2011 study entitled ``The 
Economic Impact of Pending Air Regulations on the U.S. Pulp and 
Paper Industry.'' May that be introduced into the record, Mr. 
Chairman?
    Mr. Whitfield. Without objection.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Griffith. Mr. Chairman, all of these groups are 
concerned because of jobs. There is no question about that. And 
in fact, the study that I just put in shows that a threat that 
the bills if not enacted, boiler MACT threatens 20,000 jobs, 18 
percent of the industry and roughly 36 pulp and paper mills. As 
you know, my district includes pulp and paper mills, chemical 
processors. We have employees who work at cement factories.
    These are extremely important bills. The EPA has gotten to 
a point where they are killing jobs, whether they mean to or 
not. They may not see that as a concern, but to the American 
people, it is a great concern.
    In regard to the health concerns, Mr. Chairman, we are not 
unsympathetic to health concerns but we would like to see 
evidence that actually shows that these regulations would in 
fact, not extrapolated theories or models, but would in fact 
cause the problems that the previous gentleman referenced, and 
then there is the concern that I am always raising and in fact 
had a little amendment in that many of my colleagues on the 
other side agreed to that would actually ask for a study of 
what the impacts are of the pollution coming from overseas in 
the air stream to the United States of America and in part 
because we have put so many regulations on our businesses, many 
of those jobs have moved to countries where the regulations are 
nowhere near what we have.
    Thank you, Mr. Chairman, and I appreciate the time.
    Mr. Whitfield. Mr. Rush is on his way here. His plane was 
delayed, and when he arrives, we will give him an opportunity 
to make an opening statement, but at this time I would like to 
proceed with the panel.
    On our first panel, we have the Honorable Gina McCarthy, 
who is the Assistant Administrator, Office of Air and 
Radiation, U.S. Environmental Protection Agency. Ms. McCarthy, 
we welcome you here today. I would like to say that John 
Shimkus and I do appreciate your taking time to have a 
conference call with us relating to some specific problems of 
the Prairie State plant, and we thank you for working with us 
on that important project.
    Now, I would also point out something else to you. On 
Wednesday, August 24, over 2 weeks ago, we talked to EPA about 
this hearing today, and you all had plenty of advance notice 
about this hearing. We also accommodated the request that EPA 
would be the sole witness on the first panel of this hearing. 
The two pieces of legislation that we are considering today are 
a mere 15 pages total so there is not that much to prepare for, 
and our committee has expressed, requested and required that 
witnesses' testimony be submitted 2 working days in advance of 
the hearing to give us an opportunity to review it completely 
and make these hearings more meaningful, and we received your 
testimony last night at 7:00, and this really is not 
acceptable. It does not allow us the time to prepare, and I 
hope that you would talk to your staff or whoever is 
responsible for this to make sure in the future when we have 
these hearings that we are able to get the testimony at least 2 
days in advance.
    So at this time, Ms. McCarthy, I would like to recognize 
you for your opening statement.

 STATEMENT OF REGINA MCCARTHY, ASSISTANT ADMINISTRATOR, OFFICE 
     OF AIR AND RADIATION, ENVIRONMENTAL PROTECTION AGENCY

    Ms. McCarthy. Thank you, Chairman Whitfield.
    First of all, you are more than welcome for the work on 
Prairie State. Thank you, and thank Congressman Shimkus for 
bringing that to my attention. It worked out very well, I think 
for the environment and the company, so thank you so much.
    And let me apologize for the tardiness of my testimony. 
Regardless of who is responsible, it is my responsibility to 
see that we meet the needs of the committee, and I will take--
my personal attention will go to that in the future, so I 
apologize for that.
    So Chairman Whitfield and members of the subcommittee, 
first of all, thank you for inviting me here to testify. The 
Administration has major concerns with these two bills. They 
are a clear attempt to roll back public health protections of 
the kind that have been in place as part of the Clean Air Act 
for decades. For 40 years, the Clean Air Act has made steady 
progress in reducing air pollution. In the last year alone, 
programs established since 1990 are estimated to have reduced 
premature mortality risks equivalent to saving over 160,000 
lives. They have also enhanced productivity by preventing 13 
million lost workdays and kept kids healthy and in school, 
avoiding 3.2 million lost school days.
    History has shown repeatedly that we can clean up 
pollution, create jobs and grow our economy. Since 1970, key 
air pollutants have decreased more than 60 percent while our 
economy has grown by over 200 percent. Every dollar we spend 
cleaning up the air has given us over $30 in benefits.
    EPA standards to limit air toxic emissions from boilers, 
incinerators and cement kilns continue that success story. 
Today's bills, which directly attack the core of the Clean Air 
Act, raise a number of serious issues. Most importantly they 
would indefinitely delay the important health benefits from 
national limits of air toxics, toxic pollution including 
mercury, which can result in damage to developing nervous 
systems of unborn babies and young children, impairing 
children's ability to think and to learn. These bills do not 
simply give EPA more time to finalize more rules. Rather, they 
would prohibit EPA from finalizing replacement rules prior to 
at least as early as March 2013 at best. It would prohibit EPA 
from requiring compliance until at least 5 years after the 
rules are finalized and it would fail to set any new deadlines 
for either EPA action or for compliance. Combined, these 
provisions make it clear that the authors have no time in mind 
for when these delayed public health benefits would be 
delivered to American families.
    Just to be clear, the timeline in the boiler bill is not 
what EPA told the court we needed. We asked for an April 2012 
deadline, not a prohibition on finalizing standards prior to 
March 2013. We are currently reconsidering the boiler standards 
for major sources. We have stayed those standards. We have used 
the administrative process to do that. We intend to finalize 
the reconsideration process by the end of April 2012.
    Both the boiler and cement bills would indefinitely delay 
important public health protections and would create minimum 
delays lasting at least 3 years for the boiler standards and 
almost 5 years for the cement standards. As a result, combined, 
even minimum delays in these bills would cause tens of 
thousands of additional premature deaths, tens of thousands of 
additional heart attacks, and hundreds of thousands of 
additional asthma attacks that would be avoided under the 
existing boiler and cement standards that we have either 
promulgated or will promulgate in the very near future.
    We also have serious concerns with section 5 of each of 
these bills. The language is unclear but we certainly 
anticipate that some in industry would argue that this section 
would substantially weaken the act by overriding the current 
provisions for setting minimum MACT standards. So the mere 
assertion that EPA regulations are job killers should not 
justify sacrificing these significant public health benefits.
    Some studies have found that the Clean Air Act actually 
increased the size of the U.S. economy because of lower demand 
for health care and a healthier, more productive workforce. 
Another study found a small net gain in jobs due to additional 
environmental spending in the four industries studied. EPA 
standards under the Clean Air Act will encourage investments in 
labor-intensive upgrades that can put current unemployed 
Americans back to work.
    These standards at issue today will provide public health 
benefits without imposing hardship on American economy or 
jeopardizing American job creation. It is terrifically 
misleading to say that implementation of the Clean Air Act 
costs jobs. It does not. Families should never have to choose 
between a job and healthy air. They are entitled to both. And 
as the President recently said, the Administration would 
continue to vigorously oppose efforts to weaken EPA's authority 
under the Clean Air Act or dismantle the progress we have made.
    I look forward to taking your questions, and thank you for 
the opportunity.
    [The prepared statement of Ms. McCarthy follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Whitfield. Thank you, Ms. McCarthy.
    Of these five rules, of course EPA itself went to the 
courts and asked for additional time for three of them, and all 
this legislation does, it gives you 15 months to re-propose and 
finalize these rules, so it is not like we are saying never 
implement them.
    But let me ask you a question. In your time at EPA, has 
there ever been a time when a proposed regulation that the cost 
exceeded the benefits that you are aware of?
    Ms. McCarthy. In hindsight, I do not know of one, no. And 
you asked me about the exact cost, the cost as it is born out?
    Mr. Whitfield. Yes, and as far as you know, you are not 
aware of one?
    Ms. McCarthy. The bills that I am familiar with have proven 
to be much less expensive than anticipated and the benefits 
have been significant.
    Mr. Whitfield. Now, you made the comment that these 
regulations do not cost jobs, and I maybe missed part of it, 
but even your own estimate on the cement rule says that it will 
cost up to 1,500 jobs.
    Ms. McCarthy. Well, let me clarify the job numbers because 
what we see is that because of the sensitivities of the 
modeling, we both project that there could be some losses and 
some gains but we look for the central estimate of what we 
actually anticipate will be the end result.
    Mr. Whitfield. How do you calculate the cost of a job lost?
    Ms. McCarthy. There are actually peer-reviewed models and 
standards that we use and we go through the interagency process 
to ensure----
    Mr. Whitfield. Do you know what the----
    Ms. McCarthy [continuing]. With the executive----
    Mr. Whitfield. Do you know what the figure is?
    Ms. McCarthy. I do not know, actually.
    Mr. Whitfield. Do you consider the cost of lost health 
benefits created by job loss?
    Ms. McCarthy. I do not know the answer to that question. 
What I do know, Mr. Chairman, is we do a complete regulatory 
impact analysis that looks at direct economic impacts in the 
immediate future. In the immediate past, this Administration 
has really stepped up in terms of doing additional job 
analysis.
    Mr. Whitfield. Would you all sit down with us and go over 
with us the models that you use and the process that you use in 
determining cost and benefits?
    Ms. McCarthy. I will. All of the processes that we use are 
peer-reviewed. They are open to the public. They have been 
identified by the Administration as those that are most 
appropriate, and they are available to everyone to take a look 
at.
    Mr. Whitfield. Now, when you make these comments that we 
are going to prevent 18,110 cases of asthma in the future, that 
really sounds pretty subjective to me, and to most people. So I 
think there are some legitimate concerns here about cost-
benefit analysis and particularly when you have said yourself 
since you have been at EPA, the costs have never exceeded the 
benefits.
    On the boiler MACT, for example, the industry itself says 
that it is going to be $14.4 billion in new costs, that there 
are at risk 224,000 jobs. On the cement, they say capital costs 
$3.4 billion plus 4 billion additional capital costs for the 
incinerator rule, threaten shutdown of 18 plants by 2013 and 
four additional plants by 2015. The two rules combined directly 
threaten up to 4,000 jobs by 2015 and indirectly 12,000 jobs. 
And all the literature that I have ever read talks about when 
people lose jobs, it has an impact on the health care of them 
and their families, and as far as I know, EPA has never 
considered the cost of additional health care required because 
someone loses a job, and I don't understand how that is 
possible, why that is not a legitimate cost.
    Now, I know that in California and Oregon under this new 
cement rule, EPA has recognized that two of these plants cannot 
meet the new cement MACT standards even with the most state-of-
the-art pollution controls, and because of the type of 
limestone in those areas, and I know that EPA has been asked to 
create a subcategory for these two plants so that the rules are 
at least technically achievable, and EPA has refused. Now, why 
would EPA refuse to create a subcategory for these two plants 
that cannot in any way meet the standards?
    Ms. McCarthy. Mr. Whitfield, I am happy to spend as much 
time as you would like to go through the modeling that we do 
and the analysis we do for costs as well as benefits, but I 
think it is appropriate to talk about both costs and benefits 
and to look at whether or not the benefits far exceed the 
costs, which in these rules they do.
    Secondly, in terms of the Portland Cement, there were a 
couple of facilities that we actually worked with and we 
continue to work with closely. We have identified that there 
are significant opportunities for early reductions of mercury 
for those technologies with currently available technologies, 
and they are now working with us in terms of what other 
technology advances may be available to them so that we can 
ensure that they will be in compliance and we can make sure 
that that rule for them becomes achievable. So we are working 
with those two companies. There are many reasons why we look at 
subcategorization but the Clean Air Act does limit our ability 
to look at subcategorization and it does in order to make sure 
that we are advancing the right technologies moving forward 
where we are dealing with the most toxic pollution that we have 
and the impacts associated.
    Mr. Whitfield. I would just make one comment. My time is 
expired. But you have talked about mercury, Mr. Waxman has 
talked about mercury, and it is my understanding the benefits 
of the reduction in mercury was not even included in the 
benefits. The benefits come from the reduction of particulate 
matter.
    Ms. McCarthy. The benefits would--the benefits to mercury 
were not calculated. The benefits to particulate matter so 
outweighed the costs that it wasn't worth the effort, frankly.
    Mr. Whitfield. OK. Mr. Rush, sorry your plane was late. We 
are delighted you are here. Would you like to give your opening 
statement now?
    Mr. Rush. Yes, Mr. Chairman, since the line of questioning 
that you were traveling I kind of don't necessarily agree with, 
so I think I will give my opening statement. I want to thank 
you for your indulgence, and I want to thank you for allowing 
me to have the opening statement and my questions.
    Mr. Whitfield. The gentleman is recognized for 5 minutes.

    OPENING STATEMENT OF BOBBY L. RUSH, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Rush. Mr. Chairman, today we are holding a hearing on 
two bills, H.R. 2250, the so-called EPA Regulatory Relief Act 
of 2011, and H.R. 2681, the Cement Sector Regulatory Relief Act 
of 2011.
    Mr. Chairman, in the 1990 Clean Air Act Amendments, 
Congress directed the EPA to take a technologically based 
approach to reduce hazardous air pollutants, or HAPs, which are 
pollutants known or suspected of causing cancer and other 
serious health effects such as reproductive and birth defects, 
neurological effects and adverse environmental impacts. For 
example, mercury is a hazardous air pollutant of particular 
concern because it is emitted into the air and then deposited 
into bodies of water where it contaminates fish and other 
aquatic life. Research shows that pregnant and nursing women, 
women who may become pregnant and young children who eat large 
amounts of fish that is mercury-contaminated are especially at 
risk because mercury damages the developing brain and reduces 
IQ and the ability to learn.
    In order to address the entire suite of hazardous air 
toxins relatively quickly and using readily available 
technology, Section 112 of the Clean Air Act requires EPA to 
develop regulations for distinct source categories such as 
power plants and cement kiln that set specific emission limits 
based on emission levels already being achieved by other 
facilities. These regulations, or MACT standards, require that 
for existing sources, the emission standard must be at least as 
stringent as the average emissions achieved by the best 
performing 12 percent of sources in that source category.
    As I understand it, the rules targeted by these two pieces 
of legislation are already years behind of when they were 
supposed to have been finalized, but yet these two bills, H.R. 
2250 and H.R. 2681, would further delay these rules and push 
action on them further down the road even to the point of 
indefinitely. Besides postponing issuance and implementation of 
these rules indefinitely, these two bills would also undermine 
EPA's authority to require application of the best performing 
emissions control technology while also weakening the more 
stringent monitoring, reporting and pollution control 
requirements required in the Clean Air Act under Section 129.
    Mr. Chairman, for many constituents paying attention to the 
action of this committee and this Congress, it will appear that 
the intent of these two pieces of legislation is not really to 
delay these rules but to kill them off altogether to the 
benefit of some in the industry and to the detriment of the 
American public as a whole. So Mr. Chairman, I am waiting to 
hear some testimony from all the panelists today because as of 
yet, it is still unclear why Congress should force the EPA once 
again to halt or delay implementation of rules that would 
protect the public health when everyone including industry 
knows that these regulations were coming down the pike for 
almost a decade now.
    Mr. Chairman, that concludes my opening statement, and I 
will now have my 5 minutes of questioning.
    Mr. Whitfield. The gentleman is recognized for 5 minutes.
    Mr. Rush. Ms. McCarthy, thank you so very much for being 
here once again. You have a really tough job before this 
subcommittee, and I empathize with you. You have been a regular 
here on the witness panel for many hearings, and your expertise 
and your honesty with this subcommittee is commendable.
    There seems to be a misinformation campaign going on around 
precisely when these rules were scheduled to be issued and 
implemented and when EPA actually promulgated them. For the 
record, can you clear up this issue once and for all and 
provide a timeline for when EPA was initially scheduled to act 
on these rules by law and when EPA actually did issue these 
rules. Were there regulations issued in secret so as to 
surprise industry in order to knock them off guard, knock them 
off their game and then you come in, the EPA, as a thief in the 
night with a bunch of rules and regulations that would have 
detrimentally affected industry, or did EPA take into account 
any of the input from industry concerning costs or other 
factors before reissuing these new rules?
    Ms. McCarthy. I am happy to clarify. I always appreciate 
the respect with which we work with one another, so it is my 
honor to be here and answer these questions.
    I would just clarify that the Administration actually 
promulgated the rules associated with Portland Cement in August 
of 2010. That means we can enjoy significant reductions in 
toxic pollution as early as August of 2013. Now, this rule 
would delay those benefits for a minimum of 5 years. It will 
push out both the timeline. It would actually vacate those 
rules, require us to propose them, set a timeline far in 
advance that is almost close to the compliance timeline for 
when we might actually promulgate those rules, and there is no 
sense of what the compliance timeline might be for those. In 
terms of the boiler MACT rules and the incinerator rules, those 
rules were finalized in February of 2011. The agency took the 
unusual administrative step to actually stay those rules. We 
announced that in May. We are on target to re-propose those 
rules in October and finalize them in April, April of 2012, so 
we are going to enjoy the reductions in toxic pollution from 
those rules as early as 2015. Again, this bill, these bills 
would push that benefit and those benefits out to at least 3 
more years and so there is no question that this is not the 
bill or the timeline that EPA was seeking or asked for or is 
welcoming.
    Mr. Rush. So was industry made aware, were they at the 
table or did you do this in a backroom with no input from 
industry?
    Ms. McCarthy. Unfortunately, these are a series of rules 
that were tried before and brought to court. They are rules 
that have been long overdue. The 1990 Clean Air Act expected 
them to be done in 2000, and here we are in 2011 continuing to 
debate just the timeline. And so I would--these went through 
normal public comment and notice. We have had considerable 
discussion. The boiler MACT rules will go through another 
public notice and comment process but we can get these done, 
and we can get these done without any assistance needed from 
the legislature using the administrative process.
    Mr. Rush. So these bills that are before this committee 
right now, these bills would not in any way assist the EPA or 
the American public in terms of having a set of standards that 
both industry and the EPA agree on and that will benefit the 
American public in terms of having known standard. Is that 
correct?
    Ms. McCarthy. That is correct. We are on target to deliver 
substantial public health benefits with the Portland Cement 
rule that's already been finalized. It would vacate that rule 
entirely. We are on target to finalize the boiler rule after 
public comment next year, early next year in April. We did not 
ask for this. We do not need this. It is in the administrative 
process. We are continuing to use administrative remedies to 
address any concerns associated with these rules. And also, the 
significant concern that the rule doesn't just deal with 
timing, it does deal with substance. It raises concern about 
what the standards are that we are supposed to achieve, the 
compliance timelines associated with that. It raises 
significant uncertainty about whether or not we can move this 
forward and what standards would need to be applied.
    Mr. Rush. Thank you, Mr. Chairman. I yield back the balance 
of my time.
    Mr. Whitfield. As this time I recognize the gentleman from 
Texas for 5 minutes for questioning, Mr. Barton.
    Mr. Barton. Thank you.
    Madam Administrator, in your written testimony you 
acknowledge some report that specifically mentions pulp and 
paper, refining, iron and steel and plastic in this report or 
study shows that they can't find any significant change in 
employment because of increased spending on environmental 
issues. Have you driven through Ohio or Pennsylvania recently?
    Ms. McCarthy. Actually, I have, yes.
    Mr. Barton. Is there any community you went through that 
you didn't see a plant that had been shut down?
    Ms. McCarthy. I can't say that I traveled the roads that 
you are talking about but there is no question that there has 
been significant challenges----
    Mr. Barton. So you did----
    Ms. McCarthy [continuing]. In the manufacturing sector.
    Mr. Barton. You saw plants that were shut down?
    Ms. McCarthy. The question is whether or not they are 
attributable to environmental regulations or to economic issues 
in general.
    Mr. Barton. Of the industries that are mentioned 
specifically in your testimony, pulp and paper, refining, iron 
and steel and plastic, are there any of those industries that 
employment is up as, say, compared to 20 years ago?
    Ms. McCarthy. I don't know that answer.
    Mr. Barton. Oh, you do know the answer. The answer is no. 
Would you have your staff look at employment, let us say, base 
case 1990? Do you want to go back to 1970 and compare it to 
2010 and provide that for the committee? Because in every one 
of those instances, and you know this, employment is not only 
down, it is significantly down, and you know that. You are too 
smart of a person. So to sit here and tell this subcommittee 
that we can do all these great things in the environment and 
not have an impact on the employment, my good friend here, Mr. 
Walden from Oregon, just told me that the pulp and paper 
industry in his State is about 90 percent gone, 90 percent.
    One of the rules that we are looking at is cement. I have 
got three cements plants in my Congressional district. I just 
met with one of the companies during the August break. Their 
business is 40 percent down, 40 percent. They are shutting one 
kiln, and this is just one company. The cement rules that would 
be implemented if we don't move these bills cost more to 
implement than the entire profit of the entire industry, and 
you don't think that is going to have an impact on jobs?
    Now, on the other hand, the health benefits, my good 
friend, Mr. Waxman, talked about all the potential negative 
impacts of mercury and some of these other pollutants, and 
those are real. Mercury is a poison. Mercury is a pollutant. 
But because of all the things that we have done over the past 
40 years, the number of birth defects because of mercury is, I 
would think, significantly down. Now, I don't know that but 
that is my assumption. Do you know how many birth defects in 
the last 10 years have been as a consequence of mercury? Are 
there any facts on that?
    Ms. McCarthy. I certainly could get back to you, 
Congressman, but what we tend to look at is what the status of 
the industry is now and what impact our rule might have on that 
industry moving forward.
    Mr. Barton. And I want to stipulate that I think you and 
Mrs. Jackson are people of good character and integrity and you 
are doing the best job that you can in your agency, but over 
and over and over again we get these not really science-based 
facts to justify these rules, and if we have a problem with 
mercury, it would show up in birth defects and premature deaths 
and you could go to the medical records and prove it and 
justify it, but that is not the case. These are all 
probabilistic models of what might happen, not what is 
happening. Do you understand what I am--you know, we need--
there is not a member on either side of the aisle of this 
committee or this subcommittee, if we have a problem, we will 
address it, but let us at least be able to actually identify 
the health problem and because of the successes in the Clean 
Air Act and other environmental bills in the past, we don't 
have--those numbers are not there.
    And my time is expired by 40 seconds.
    Mr. Whitfield. Thank you.
    At this time I will recognize the gentleman from 
California, Mr. Waxman, for 5 minutes.
    Mr. Waxman. Thank you, Mr. Chairman.
    Ms. McCarthy, if your regulations were not science-based, 
would they stand up in court for 1 minute?
    Ms. McCarthy. No.
    Mr. Waxman. You must base your regulations on the science, 
and you have to get your figures on the impacts based on a 
peer-review process. Is that correct?
    Ms. McCarthy. That is correct.
    Mr. Waxman. Now, let me just say to you and everybody else 
on this committee, the statements I have heard members make and 
the numbers they have thrown out have not been scrutinized by 
anybody except they have been given to the members by the 
industry or they made them up out of whole cloth. I would like 
to see some of those figures scrutinized carefully.
    But Mr. Barton talked about all these plants that are now 
closed. Your regulations have not even gone into effect. They 
are closed because of the recession. They are closed because 
of, my Republican colleagues insist, the deficit, which we 
inherited for the most part from the Bush Administration. We 
also inherited the recession from the Bush Administration. Our 
country is struggling, and to say that the environmental rules 
are responsible, how could that be if these rules have not yet 
been in effect? Can you explain that to me?
    Ms. McCarthy. In fact, Congressman, for the rules that we 
are talking about today for mercury, there is no national 
standard in these sectors. These are the largest sources of 
mercury emissions from stationary facilities and yet there are 
no national standards to date. So I don't think you can 
attribute standards in the future that this bill would make 
potentially way in the future for the closures that you are 
seeing today.
    Mr. Waxman. Well, Mr. Barton said that the cost of 
compliance would be more than the entire profit of the whole 
industry. I don't know where he got that figure, but do you 
have any idea of that could be accurate?
    Ms. McCarthy. I can give you the figures by sector of what 
we believe the costs are associated with this bill. The costs 
for the----
    Mr. Waxman. Well, if you gave us those costs, would that 
wipe out the profits that the industries have and they would 
all have to close as a result?
    Ms. McCarthy. In our assessment, we do not believe there 
would be broad closures as a result of any of these rules. We 
believe there would be job growth. We believe that they are 
manageable, that they are cost-effective and the technology is 
available to be installed.
    Mr. Waxman. Mr. Barton just said, well, we have done a lot 
of things to lower birth defects because of mercury, and he 
asked you whether that is accurate or not. Now, whether it is 
accurate or not, it sounds like we are ready to celebrate fewer 
birth defects, not trying to reduce birth defects even more. I 
don't ask that as a question, I just ask it as a statement of 
incredulity.
    Proponents of these bills suggest they are simply giving 
the EPA the time it requested to get the rules right and 
provide some additional flexibilities to reduce the burdens. I 
would like to get your views on this. Could you explain what 
the boiler bill that has been introduced does to the timing of 
the boiler rules that you are proposing?
    Ms. McCarthy. Yes, the timing of these rules in terms of 
the boiler rules, as I indicated, we intend to finalize them in 
April. That means they will be in effect and we will be 
achieving these reductions in 3 years. This rule would at the 
very earliest only allow us to finalize those rules almost a 
full year later, which would delay compliance considerably, and 
these rules would also call into question and add uncertainty 
about how we establish the standards for these rules, and in 
fact, it would take away any timeline for compliance.
    Mr. Waxman. In fact, the bill eliminates any deadline for 
action, allowing indefinite delay. That is fundamentally 
different from requesting a specific limited extension of time. 
But this is not all the bills do. Section 5 of both bills may 
complete change the criteria Congress established in 1990 for 
how EPA must set limits for air toxics. I say ``may'' because 
the language appears to be ambiguous.
    Ms. McCarthy, what is the legal effect of this language in 
EPA's view?
    Ms. McCarthy. Well, we are clearly concerned that it would 
raise legal uncertainty. We are concerned that industry would 
argue that these provisions modify or supersede existing Clean 
Air Act provisions that have governed these toxic standards 
since 1990. In particular, we anticipate that industry would 
argue that EPA would be required to set standards below the 
current MACT floor and to use a different process for setting 
that standard, one that identifies the least burden option. I 
don't even know who that burden would be assessed for. Would it 
be the regulated industry or the breathing public.
    Mr. Waxman. In the case of the bill, it says require the 
least burdensome regulations including work practice standards. 
Current law allows work practice standards only if the 
Administrator decides a numeric emissions is not feasible. 
Maybe you can help us to make heads and tail of this. If the 
new language does not trump the current law, would it have any 
effect? In other words, in the boiler rule, is there a 
situation where you can determine a numeric standard wasn't 
feasible but still refuse to work practice standards?
    Ms. McCarthy. No. In fact, between proposal and final, we 
made a determination on the basis of comments that there were 
boilers where limits were not feasibly achieved and we have 
gone to work practice standards.
    Mr. Waxman. And if it does trump the current law, would EPA 
be able to set numeric emissions limits for any pollutants from 
any boilers?
    Ms. McCarthy. It is unclear.
    Mr. Waxman. Thank you, Mr. Chairman.
    Mr. Whitfield. At this time I recognize the gentleman from 
Oklahoma, Mr. Sullivan, for 5 minutes.
    Mr. Sullivan. Thank you, Mr. Chairman.
    Ms. McCarthy, I disagree with your statement, with your 
testimony that H.R. 2681 halts Clean Air Act achievements. H.R. 
2681 does not halt regulation of cement facilities. It does 
take the policy position that EPA is regulating too much, too 
fast and that we need commonsense rules that protect our 
communities including the jobs they depend upon. The cement 
sector has expressed major concerns with the workability and 
the timeline for implementing EPA's recent cement MACT and 
related rules affecting cement kilns. Would you agree there are 
legitimate concerns about technical aspects of the cement 
sector rules?
    Ms. McCarthy. I would agree that concerns have been 
expressed but I believe that the final rule is appropriate and 
necessary and can be achieved.
    Mr. Sullivan. Would you agree there are legitimate concerns 
with the compliance timeline for implementing the rules?
    Ms. McCarthy. I believe that a number of concerns have been 
expressed, but again, I believe the timelines can be achieved.
    Mr. Sullivan. EPA stayed the major source boiler MACT and 
the CISWI rule. Why have you not also stayed the cement MACT 
rule as well, given it is so intertwined with the CISWI rule?
    Ms. McCarthy. The Portland Cement rule was finalized 
earlier. We do not believe that there was significant concern 
raised about any of the standards or how do achieve those that 
would warrant a stay unlike the boiler rule and the CISWI rule 
where we identified that there was significant changes between 
proposal and final that deserve to have additional public 
notice and comment. So that is why we have stayed those rules 
in order to achieve that notice and comment process and to 
finalize those expeditiously. That was not the case with 
Portland Cement and it is highly unusual for the agency to stay 
a rule, and clearly there was no reason to do that for Portland 
Cement.
    Mr. Sullivan. How could you not have at least concerns when 
you are going to shut down 18 plants, though? Why couldn't 
you----
    Ms. McCarthy. I am not exactly sure where those numbers are 
coming from. I do believe in our economic analysis we indicated 
that the industry itself was facing low demand for its 
products, that there was significant challenges associated with 
that. We certainly in no way attributed closures of 18 
facilities to these rules.
    Mr. Sullivan. EPA's cement MACT rule published in September 
2010 affects 158 cement kilns located at cement plants 
throughout the United States. How many of those cement kilns 
currently meet the emission limits and other requirements 
established by this rule? Are there any?
    Ms. McCarthy. As far I know, there are new facilities being 
constructed that will achieve those standards but at this point 
I do not believe there is a single facility that is meeting the 
standards, most notably because most of them have not been 
under national standards and they have not voluntarily decided 
to achieve these types of reductions.
    Mr. Sullivan. Does the Administration have any concerns 
about the potential importing of cement as a result of forcing 
the idling or permanent shuttering of U.S. cement plants? The 
President has stated that new infrastructure projects, roads 
and bridges, will be a big part of his jobs package. Together 
with EPA's cement rules, are we supposed to build those roads 
and bridges with Chinese cement? Did you know that China 
already makes 28 times more cement than the United States?
    Ms. McCarthy. We actually did look at this issue when we 
developed our economic analysis, and it is in the records. We 
are clearly concerned about the health of U.S. industry. There 
is no question about that. We did not believe that this rule 
would have a significant impact in terms of the amount of 
imported cement that would be coming into this country as a 
result of compliance.
    Mr. Sullivan. Thank you. I yield back.
    Mr. Whitfield. At this time I would like to recognize the 
gentleman from Michigan, Mr. Dingell, for 5 minutes.
    Mr. Dingell. Thank you, Mr. Chairman. I ask unanimous 
consent to insert into the record my opening statement, which I 
think everybody will find enlightening, well written, 
entertaining, and I believe, valuable from the point of 
information.
    Mr. Whitfield. Thank you for providing it to us.
    [The prepared statement of Mr. Dingell follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Dingell. I find myself, Mr. Chairman, somewhat 
distressed here. I have heard general conclusions from the 
witness but I have heard nothing in the way of hard statements 
that relate to what it is this committee needs to know and 
justification for the legislation, and I have not heard any 
clear statements from the committee or its members about 
exactly what is the situation with regard to the impact of this 
legislation or the EPA's action with regard to the rules, and 
Madam Administrator, I find that to be somewhat distressing. So 
I will be submitting to you a letter shortly in which I hope we 
will get some better details on this. For example, are you able 
to make the categorical statement that none of these plants 
being closed are being closed because of the action of EPA? Yes 
or no.
    Ms. McCarthy. I apologize. I think I would indicate that we 
have in the record our economic analysis that looks at these 
issues. Because of the sensitivity of that, it will have 
different impacts--
    Mr. Dingell. Simplify my problem by telling me yes, that 
these will be closed because of the action of EPA, or no, they 
will not be closed because of the action of EPA. That is a 
fairly simple conclusion and I hope that you would be able to 
just give me yes or no on the matter.
    Ms. McCarthy. Well, we don't believe that there will be 
significant closures as a result. I cannot indicate whether it 
will impact a single closure.
    Mr. Dingell. You are under the law permitted to choose 
amongst the alternatives. You may not take action on the basis 
of cost alone. But once the question of the most effective way 
of addressing this from the scientific and health standpoint 
has been reached, you are then permitted to choose that rule or 
rather that approach which costs the least and which is most 
helpful in terms of the industry. Isn't that so? Yes or no.
    Ms. McCarthy. Yes.
    Mr. Dingell. Now, having said this, have you done that?
    Ms. McCarthy. Yes.
    Mr. Dingell. Where is it stated in the rule, if you please? 
Submit that for the record to us. And I ask unanimous consent, 
Mr. Chairman, that the record be kept open so we can get that 
information.
    Mr. Whitfield. Without objection.
    Mr. Dingell. Now, I know that our economy has grown over 
200 percent since the Clean Air Act of 1970, and key pollutants 
have been reduced by 60 percent. I regard that as a good thing, 
and it is an example that we can count on the law to do both of 
the things that the Congress wanted when we wrote the original 
legislation. Now, we find that these things cause us 
considerable problems with regard to business certainty. I note 
that nobody seems to know about the certainty about how these 
rules are going to be enacted. Has the EPA given thought to 
establishing the certainty that business needs to accomplish 
its purposes? Yes or no.
    Ms. McCarthy. Yes.
    Mr. Dingell. All right. Now, am I correct that H.R. 2250 
would vacate the area source rules and require EPA to reissue 
them? Yes or no.
    Ms. McCarthy. Yes.
    Mr. Dingell. Area source boilers are smaller boilers such 
as ones at hospitals and other institutional and commercial 
facilities. What is it that they would have to do under this 
rule? I would like to have that submitted for the record in a 
clear statement, and I ask unanimous consent that the record 
stay open for that purpose, Mr. Chairman.
    Mr. Whitfield. Without objection.
    Mr. Dingell. Now, I also understand that some area sources 
have complained that they will not be able to meet the tune-up 
requirement by the deadline in your legislation, or rather in 
your regulation, and asked you to reconsider the deadline. Are 
you reconsidering the deadline? Yes or no.
    Ms. McCarthy. We are considering that comment and that 
petition, yes.
    Mr. Dingell. How soon will you come to a conclusion on that 
particular point?
    Ms. McCarthy. Well, we are clearly trying to do that very 
shortly.
    Mr. Dingell. It is very clear that if industry cannot meet 
the requirements, that you should consider this most seriously. 
Is that not so?
    Ms. McCarthy. Yes, and we will be considering it in the 
proposed rule, taking comment and----
    Mr. Dingell. Do you have the ability to move the deadline 
back as a result of the reconsideration process? Yes or no.
    Ms. McCarthy. Yes.
    Mr. Dingell. And you would make the clear statement that 
you would not rule out that action? Is that correct?
    Ms. McCarthy. No--that is correct. Sorry.
    Mr. Dingell. Now, in the testimony, he submitted, Mr. 
Rubright states several times that the regulation is 
unsustainable. Is that statement correct or not?
    Ms. McCarthy. No.
    Mr. Dingell. Should this legislation pass, what do you 
think the timetable should be to issue final rules regarding 
these industries?
    Ms. McCarthy. The timetable that is in the Clean Air Act 
and the timetable that we have agreed to and that we are on.
    Mr. Dingell. Now, you indicated you think that the 
regulation is unsustainable. Why do you make that statement? Or 
rather that the regulation is sustainable. Why do you make that 
statement?
    Ms. McCarthy. Because we have done a complete cost-benefit 
analysis. We have done the same health-based benefits 
assessment as we have always done, and we believe that the 
technology is in place. We have looked at the most cost-
effective alternatives to achieve the best benefits that we 
can.
    Mr. Dingell. Have you considered his particular concerns 
and the points that he makes or is this a statement with regard 
to general findings by the agency?
    Ms. McCarthy. Both.
    Mr. Dingell. OK. Now, one last question. Should this 
legislation pass, what do you think the timetable should be to 
issue the final rules regarding these industries? If you will 
give us a quick answer on that and then a more detailed answer 
for the record, please.
    Ms. McCarthy. The bill does not establish a timetable. It 
sets a time before which we cannot issue a rule.
    Mr. Dingell. What do you suggest should be done with regard 
to that particular matter?
    Ms. McCarthy. I think we should continue with the rules 
under the Clean Air Act as it currently exists.
    Mr. Dingell. Mr. Chairman, you have been most courteous. 
Thank you.
    Mr. Whitfield. Thank you.
    At this time I recognize the gentleman from Illinois, Mr. 
Shimkus, for 5 minutes.
    Mr. Shimkus. Thank you, Mr. Chairman, and I appreciate 
Assistant Administrator McCarthy. We have had a good working 
relationship on some issues, and I think a lot of the issue is 
time and being able to get people to move in a direction. I 
think the concern with a lot of these is, and I will do it 
based upon the numbers, and really it kind of follows up on 
what Mr. Dingell was talking about, is there will be no time 
and this will be a major change.
    You made a statement on the proposed health benefits. If 
all the major boilers stopped operating, if all the area source 
boilers were shut down, if we stopped waste incineration, based 
upon your opening statement, the proposed health benefits from 
the shutting down of these would go up. Is that correct?
    Ms. McCarthy. Mr. Shimkus, it is not intention to shut----
    Mr. Shimkus. No, I am just--I mean--but that is true based 
upon the opening statement. If we shut down every boiler----
    Ms. McCarthy. It is true that if----
    Mr. Shimkus [continuing]. That your----
    Ms. McCarthy [continuing]. There is no pollution, then----
    Mr. Shimkus. Your proposed health benefits----
    Ms. McCarthy [continuing]. Would go away.
    Mr. Shimkus. Thank you. And these are your numbers. There 
are major source boilers, 13,840 major source boilers. Is that 
correct?
    Ms. McCarthy. That is right.
    Mr. Shimkus. Do you have an estimation of how many of these 
boilers will meet your proposed rules as we think they will 
come out?
    Ms. McCarthy. Actually, there are boilers in a variety of 
categories that already meet all of these standards.
    Mr. Shimkus. I have been told that there are 31 so that 
13,809 major source boilers would not comply.
    Ms. McCarthy. The only thing I would remind you, Mr. 
Shimkus, is, we are in a reconsideration process. That rule 
will be re-proposed in October----
    Mr. Shimkus. So would it go up to--would there be 800 then 
or maybe 1,000 of the 13,000?
    Ms. McCarthy. As you know, we established the standards 
because it deals with toxic pollution to try to----
    Mr. Shimkus. You understand my point that I am making----
    Ms. McCarthy [continuing]. Look at the best performing and 
bring the others up.
    Mr. Shimkus. OK. You understand the point----
    Ms. McCarthy. I do.
    Mr. Shimkus [continuing]. That I am making that of the area 
source boilers, you estimate there are 187,000 boilers. We 
can't get an idea, even industry has no idea based upon what we 
envision the proposed rules would be that a single one would 
meet the standard.
    Ms. McCarthy. On the area source boilers?
    Mr. Shimkus. Right.
    Ms. McCarthy. The vast majority of those have no emission 
standards. They have work practice standards. Most boilers out 
in commercial and hospital settings actually are natural gas 
and are governed by this. Of the remainder, unless it is a 
large coal facility, it----
    Mr. Shimkus. No, I am talking about, you know, just the 
area source boilers. Let us go to the----
    Ms. McCarthy. It just needs to do a tune-up every 2 years.
    Mr. Shimkus. Let us go to the incinerators. You estimate 88 
incinerators from your numbers, and do you know the percentage 
that probably meet the standard?
    Ms. McCarthy. Three currently meet all standards that I am 
aware of.
    Mr. Shimkus. So 85 do not?
    Ms. McCarthy. Eighty-five would have to make changes in 
their facilities----
    Mr. Shimkus. And those changes would be a capital expense 
outlay, and that kind of follows into this whole debate about 
your job calculations, because part of your job calculation is 
retrofitting these facilities. Retrofitting jobs, are they 
short term, 6 months, 12 months? How long is a major operating 
facility those jobs remain? I mean, they remain for decades. So 
that is long-term consideration of the length of that.
    My time is rapidly clicking away, and I want to make sure I 
raise this issue on the science-based debate. We have had this 
in my subcommittee hearing, Mr. Chairman, and that the courts 
give deference to the Federal Government when there is a court 
case over any other advocacy in the court case, and the 
standard of proof is very high and it is arbitrary and 
capricious. So for my colleagues here, part of this debate on 
reform would be a debate on judicial reform in the courts to 
give the complainants equal standing as the Federal Government 
when they have litigation. Currently now, the courts assume 
that the Federal Government is correct and so the plaintiffs 
have a higher burden, and I think that is one of the major 
reforms that has to be done. I yield back my time.
    Mr. Whitfield. Thank you.
    At this time I recognize the gentlelady from Florida, Ms. 
Castor, for 5 minutes.
    Ms. Castor. Thank you, Mr. Chairman.
    Good morning, Ms. McCarthy.
    Ms. McCarthy. Good morning.
    Ms. Castor. I think I would like to start by saying how 
proud I am to live in a country that for decades has protected 
the air that all Americans breathe, for decades. And I remember 
very well as a youngster in the 1970s the improvement in air 
quality in my hometown in Florida. I remember smoggy mornings 
early in the 1970s, especially during these hot summer months 
where the air was just stifling and we weren't getting much of 
a breeze off of the Gulf of Mexico, and the air stunk, but over 
the years it improved. It got a lot better. And the health of 
the community improved. And then in 1990, the Congress came 
back based upon science and everything they had learned and 
adopted Clean Air Act Amendments, and that was over 20 years 
ago and those Clean Air Act Amendments required EPA to 
establish emission standards for particular sources, and 
Congress said to the EPA back in 1990, OK, you have 10 years to 
adopt standards for these particular sources, so that is by the 
year 2000, right? Eleven years ago. And they gave them a few 
years after the adoption of those regulations for these 
particular sources to have some basic standards. But it took 
EPA many years. EPA first targeted these particular sources, 
adopted some standards for boilers in 2004. It got caught up in 
court challenges, and pursuant to a court-ordered deadline EPA 
finalized rules for industrial, commercial and institutional 
boilers and other particular sources of air pollution in 
February of this year.
    This has a long history, and I think it is time to bring it 
in for a landing rather than continuing to delay it. The 
Congress gave very clear direction in 1990, and we have been 
grappling with this. We understand now the science involving 
the public health when you clean the air and the impact on our 
families.
    So I am very concerned that the bills at issue today appear 
to be hazardous to the health of the Nation and our economy 
because they delay vital health protections and they create 
great uncertainty for everyone. So let us look at H.R. 2250 
which indefinitely delays the rules to reduce toxic air 
pollution. Based upon the evidence, the rules if finalized as 
scheduled would provide tremendous health benefits to Americans 
by cutting emissions of pollutants linked to a range of serious 
health effects, developmental disabilities in children, asthma, 
cancer. EPA estimates that these rules will avoid more than 
2,600 premature deaths, 4,100 heart attacks and 42,000 asthma 
attacks every year. I don't know about you all but this is an 
epidemic in our country, the rates of asthma and heart disease, 
and people, we are all part of the solution. And I don't think 
we can turn a blind eye to this evidence.
    Ms. McCarthy, after the years that EPA has been gathering 
evidence from all corners, from industry, how would nullifying 
these rules now affect the public health in your opinion?
    Ms. McCarthy. It would leave incredible public health 
benefits on the table, benefits that are significantly 
important to American families, and it would do so in clear 
recognition that for every dollar we spend on these rules, we 
are going to get $10 to $24 in benefits for people in terms of 
better health for them and for individuals and their families. 
There is no reason for it. We have administrative processes 
that we are going through. We are following the same notice and 
comment process that Congress intended. We should be allowed to 
proceed with these rules and to get the public health benefits 
as delayed as they are finally deliver them for the American 
family.
    Ms. Castor. And the statutory deadline originally that the 
Congress directed in 1990 was 2000.
    Ms. McCarthy. It was, and I will tell you it would be 
inexcusable to not deliver these knowing the health benefits, 
knowing the impacts associated with these toxic pollutants and 
knowing that we can do this cost-effectively and actually at 
the same time increase jobs. These are not job-killing bills. 
These are bills that will require investments that will put 
people back to work and that will grow the economy.
    Ms. Castor. Thank you very much.
    Mr. Whitfield. The gentleman from Oregon is recognized for 
5 minutes, Mr. Walden.
    Mr. Walden. I thank the chairman very much and I welcome 
our witness today. I want to make a couple of comments.
    First of all, I would say up front that one of the two 
cement plants that your regulations put great burdens on is in 
my district, Durkee, Oregon, so I would like you to submit for 
the committee within a week or so these specific health issues 
that you have identified relating to mercury poisoning, asthma 
and all as it relates to Oregon specifically, because you must 
have them broken down by region, I would assume, or by county.
    Ms. McCarthy. We certainly look at exposures around 
facilities.
    Mr. Walden. So if you could provide those, it would be most 
helpful. I have got a chart here somewhere that shows the 
percent of mercury deposition that originates outside the 
United States, and I believe that your own data indicate that 
most of this comes from China or foreign sources, most of the 
mercury coming into the United States. Is that accurate?
    Ms. McCarthy. It also is emitted by us and comes back at 
us.
    Mr. Walden. Indeed. Now, you said in your testimony or in 
response to a question that there have been no mercury control 
MACT standards for mercury?
    Ms. McCarthy. I said national standards. That is correct.
    Mr. Walden. Right, and that nobody had really invested 
ahead of those standards.
    Ms. McCarthy. No, I indicated that for the most part the 
investments weren't sufficient to get compliance with the 
standards that we have.
    Mr. Walden. So in the case of Ash Grove in my district in 
Durkee, they have spent about, I think it is $20 million. They 
have reduced their emissions by 90 percent, and my 
information--correct me if I am wrong--is there a more advanced 
technology they can use than what they are using today with the 
carbon injection system?
    Ms. McCarthy. Actually, they have been very responsive to 
the needs of the State and working with them and----
    Mr. Walden. No, they would have met the State standards. It 
is your new Federal standards that is causing them the problem 
is my understanding.
    Ms. McCarthy. We are working with them on that, yes.
    Mr. Walden. So my question, though, is yet to be answered. 
Is there an achievable control technology available today that 
is better than the one they are implementing?
    Ms. McCarthy. I do not know, but they are working on that.
    Mr. Walden. Now, I want to know from you because you are 
writing the rules. Because the rules in the Clean Air Act talk 
about achievable control technology, right? And in the 
committee report in 1990 in the Clean Air Act Amendments, the 
House report itself on page 328 of part 1 stated, ``The 
committee expects MACT to be meaningful so that MACT will 
require substantial reductions in emissions from uncontrolled 
levels. However, MACT is not intended to require unsafe control 
measures or to drive sources to the brink of shutdown.'' So I 
guess the question is, if you have got two plants because the 
mercury levels in the limestone next to them exceed these 
standards you are setting, you may be driving them to the brink 
of shutdown. I mean, they have reduced 90 percent, but under 
your rules proposed, it would be 98.4 percent.
    Ms. McCarthy. The facility that you are talking about has 
made substantial investments in technologies----
    Mr. Walden. Yes, they have.
    Ms. McCarthy [continuing]. To achieve these mercury 
reductions. They are continuing to do that.
    Mr. Walden. I understand that.
    Ms. McCarthy. I have ever reason to believe that the Clean 
Air Act in this instance will behave exactly as history has 
shown us, which is to drive new technologies into the market 
and to successfully achieve----
    Mr. Walden. And today there is no technology superior to 
what they are using, is there?
    Ms. McCarthy. There are technologies that will achieve 
these. The challenge, as you know----
    Mr. Walden. To the 98.4 percent?
    Ms. McCarthy. The challenge, as you know, for this 
particular facility is the limestone quarry that they are using 
and the mercury content there.
    Mr. Walden. And I believe also in the conference committee 
report from the 1990 Clean Air Act, it talked about 
substituting orinol, and it said, ``The substitution of cleaner 
ore stocks was not in any event a feasible basis on which to 
set emission standards where metallic impurity levels are 
variable and unpredictable both from mine to mine and within 
specific ore deposits.'' So there was a recognition, as I 
understand it, in the Clean Air Act about different ore levels 
in different places.
    Here is the deal. You know, we are going to listen to the 
President tonight, and as Americans, we are all concerned about 
losing jobs. I represent a very rural district that is 
suffering enormously from Federal regulation, whether it is on 
our Federal forest and the 90 percent reduction in Federal 
forestlands that by the way are burning--we can get into that 
whole discussion and what that does to health quality--or 
whether it is this boiler MACT standard. I have got three 
letters, Mr. Chairman, that I would like to submit into the 
record from----
    Mr. Whitfield. Without objection.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Walden. And these are about the uncertainty that is out 
there in the marketplace over your boiler MACT standards. While 
you may have some improvements, these companies in my district 
are saying we continue to have major ongoing concerns regarding 
achievability, affordable and lack of accounting for 
variability within our operations for newly released rule. 
Boise Cascade in this case, Boise will need to spend millions 
of dollars in new investments for multiple control technologies 
which can conflict with other existing control technologies. 
There is also an issue they raise about how they use every bit 
of the wood stream back into their facilities, which we used to 
applaud them for doing, no waste, and apparently in some of the 
other rules that are coming out of your agency, they now would 
have to treat some of that resin that they now burn in their 
boilers as solid waste and put it in landfills and replace that 
with fossil fuels. I mean, this is why--and I understand unless 
you are out there you don't get this, this is why a lot of 
Americans are not investing in their own companies because 
there is such uncertainty in the marketplace over all these 
rules and regulations, and I hear it every day I am out in my 
district, and my time is expired.
    Mr. Whitfield. Thank you, Mr. Walden.
    At this time I recognize the gentleman from Texas, Mr. 
Green, for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman.
    Ms. McCarthy, good to see you again.
    Ms. McCarthy. You too as well.
    Mr. Green. Like my colleague, Joe Barton, we appreciate 
your working with us on a lot of issues. Obviously sometimes we 
don't get to the end result that each of us can agree to.
    In the boiler MACT rule, you make a change in the 
definition of waste because the courts found in 2000 the 
definition was not strict enough. This change has meant that 
some traditional fuels in many of these plants are now 
classified as waste and now the facilities in a regulatory 
sense become commercial industrial solid waste incinerators. I 
have a couple questions.
    Are you sympathetic to the argument from the cement 
companies they are in a bind because they are being forced to 
comply with the new NESHAP rule but then might end up being 
regulated as a commercial industrial solid waste incinerator, 
then some of their compliance investment would be for nothing 
and they will have to completely start over. It seems like that 
would be an economic waste, and to me, it seems they are really 
in a bind for the planning side. How would you work with them 
on this and given the massive job losses in the sector they 
really can't afford to apply for permits for one designation 
and then take these costs and then turn around and have to 
start over?
    Ms. McCarthy. We are actually working with these companies 
right now. The rule has been finalized and they are making 
investment decisions and we are more than willing to sit down. 
The good news is that the incinerator rule, they can either 
decide to be regulated as a cement facility or they can decide 
to burn solid waste, which would allow them to be regulated and 
require them to be regulated under the incinerator rule.
    Mr. Green. So they have a choice to make which one they 
come under?
    Ms. McCarthy. They do, and depending upon what they want to 
do, they make that choice themselves and we allow that, but the 
good news is that any technology investment they might make if 
they decide to be regulated under the Portland Cement rule is 
the same type of technology that they would have to put in 
place to be regulated under the incinerator rule. The main 
difference is that they would have to look at developing much 
more explicit monitoring requirements and doing things 
differently for that purpose under CISWI, which is an area that 
we are looking at under our reconsideration and that will 
clarify itself.
    Mr. Green. One of my concerns is that some of these plants, 
they burn tires, they burn construction debris, and 
particularly with tires because of instead of having them on 
the side of the road people dump, we can actually have a 
beneficial use, and so that is part of my concern.
    A couple of people on the second panel will talk about they 
cannot design, install and commission emission controls under 
existing coal-fired boilers within 3 years. They claim this is 
particularly true because third-party resources with the 
expertise to design and install these controls will be in high 
demand as multiple boiler rules are being implemented in a 
short time by both the industry and electric utility 
industries. Do you share that concern, that there may not be 
the available technology to get there in 3 years?
    Ms. McCarthy. We have certainly looked at it. Let me hit 
the solid waste issue very briefly for you, Mr. Green. We know 
that concerns have been raised. We are working and we have 
developed guidance to address the tire issue so that we 
eliminate any uncertainty and clarify those rules.
    In terms of the coal-fired boilers, each one gets 3 years 
with the opportunity if there are technology problems to go to 
4 years. We also know that there is fuel switching that is 
often done to achieve compliance because many of these coal 
boilers switch between biomass and coal, and it is a very 
effective strategy to achieve some of these compliance limits. 
So we are more than happy to work to ensure that compliance is 
achieved in a timely way.
    Mr. Green. Todd Elliott from Celanese Corporation is here 
to testify on the second panel. In his testimony, he talks at 
length about some of their boilers at the Narrows, Virginia, 
facility. I don't have Narrows, Virginia, but I do have 
Celanese plants in our district. These boilers are identified 
by the EPA as top-performing units and used to set the proposed 
regulatory standards for hydrochloric acid and mercury 
emissions yet not even one of these top-performing units will 
meet the emissions standards for both mercury and hydrochloric 
simultaneously without installing costly emission controls. How 
is it they can be a top performer and yet not meet these new 
standards on a consistent level?
    Ms. McCarthy. Well, we know that that is an issue that has 
been raised to us. We have gathered more data. We are going 
through the reconsideration process and we fully believe that 
we will be able to assess that data and come up with standards 
that are meaningful and achievable.
    Mr. Green. Hopefully we will come to an agreement on some 
of our other issues.
    My last question is, we have a plant that in addition to 
burning natural gas burns refinery fuel gas, petrochemical 
processed fuel gas in their boilers and process heaters. In 
both these cases, their blends of methane, propane and butane 
are clean-burning fuels. Does EPA does intend to exempt both 
refinery and petrochemical processed fuel gases from the 
numerical standards similar to natural gas?
    Ms. McCarthy. Yes, we did establish a process for that. We 
heard loud and clear during the comment period that we 
shouldn't be segregating refinery gas any differently if it is 
as clean as natural gas. We have set a process to look at that. 
We are also looking at that again in the reconsideration 
process. So I feel very confident that we can come to a good 
understanding on that issue and have a very clear, well-defined 
process so that there is certainty in the business community, 
and I do believe that most of the refinery gas will most likely 
be required to do work practice standards as opposed to an 
emissions limit.
    Mr. Green. Thank you, Mr. Chairman.
    Mr. Whitfield. The chair now recognizes the gentleman from 
Louisiana, Mr. Scalise, for 5 minutes.
    Mr. Scalise. Thank you, Mr. Chairman. I appreciate you 
having this hearing. I am proud to support the legislation that 
we are discussing today, and Ms. McCarthy, I appreciate you 
coming as well. I spent the last 5 weeks, as I am sure all my 
colleagues have, going throughout my district meeting with 
small business owners, middle-class families talking about the 
challenges that they are facing and things that we can do in 
Congress to get the economy back on track, to create jobs, and 
I have got to tell you, there was one recurring theme that came 
across with every single small business I met with, and they 
said the primary impediment to creating jobs today for them are 
the regulations coming out of this Administration, and EPA was 
at the top of the list of agencies that are bombarding them 
with regulations that have nothing to do with safety or 
improving the quality of life but in fact seem to be going 
through, I think, an extreme agenda of carrying out what is an 
agenda for some at the agency but is flying in the face of 
things that they want to do in creating jobs and investing. I 
mean, there is money on the sidelines. Anybody that follows 
markets today, that follows what is happening throughout our 
country will tell you there is trillions of dollars on the 
sidelines that could be invested right now at creating jobs, 
and the job creators, those people that have that money to 
invest, are telling us that it is the regulations coming out of 
agencies like EPA that are holding them back and so, you know, 
when you give your testimony, and I have listened to some of 
your testimony about the ability that you think your agency has 
to create jobs by coming out with regulations, you know, maybe 
you are living in a parallel universe to the one I am living 
in, but when I talk to people--and, you know, you gave a 
statement saying for every dollar in new rules that you then 
give back $24 in health benefits, for example, with the 
regulations you are proposing. You are saying that the rules 
that will require investment, these rules that you are coming 
out with will require investments that will create jobs and put 
people back to work.
    You know, first of all, tell me, when you make rules, do 
you all really look and think that the rules you are making are 
going to create jobs?
    Ms. McCarthy. That is not their primary but we----
    Mr. Scalise. But do you----
    Ms. McCarthy [continuing]. Certainly look at the economic 
impacts of our rules----
    Mr. Scalise. Because you have given some testimony----
    Ms. McCarthy [continuing]. Looking at jobs.
    Mr. Scalise. So, for example, I think you had testimony 
that for every million or million and a half dollars a business 
spends to comply with rules, you said that creates a job?
    Ms. McCarthy. I certainly--I did not say that and I don't 
think I have submitted testimony to that effect.
    Mr. Scalise. I think that was your testimony, and I will go 
back and look, and----
    Ms. McCarthy. Maybe in the past, and that certainly does 
not sound unachievable. Oh, that is one of the studies that we 
use as a basis for our economic analysis. It indicates that.
    Mr. Scalise. So what does it indicate, if you can give me 
the exact indication, because I read that in one of your 
statements.
    Ms. McCarthy. I think it indicates that for every million 
dollars expended on control equipment. We find that increased 
environmental spending generally does not cause a significant 
change in employment, and this is referencing a Morgan Stearns 
study that has been peer reviewed, and the scientific 
literature says our average across all four industries is a net 
gain of 1.5 jobs per $1 million in additional environmental 
spending.
    Mr. Scalise. So basically what you are saying is, if you 
force a company to spend another million dollars complying with 
some rule that you come up with, Congress didn't pass it but 
you all came with a rule, you are acknowledging that that is 
forcing businesses to spend money. So if you say a business is 
forced to spend a million dollars to comply with your rule, 
according to your metrics, that creates one and a half jobs. Is 
that one and a half jobs at your agency?
    Ms. McCarthy. I certainly don't want to give the impression 
that EPA is in the business to create jobs. What we----
    Mr. Scalise. You are definitely not.
    Ms. McCarthy. We are in the business----
    Mr. Scalise. From everybody I have talked to, you are in 
the business of putting people out of work right now.
    Ms. McCarthy. No, we are in the business of actually--the 
Clean Air Act, its intent is to protect public health.
    Mr. Scalise. Well, let me ask you this----
    Ms. McCarthy. As a result of that, money gets spent and 
jobs get--yes.
    Mr. Scalise. And jobs get what?
    Ms. McCarthy. Jobs grow.
    Mr. Scalise. Again, maybe a parallel universe we are living 
in, but when you think jobs grow because of these regulations, 
I can show you small business after small business that can't 
grow jobs because of your regulations directly related to your 
regulations, not nebulous.
    And now we will get into the health issue because one of 
the things we hear and it was talked about in opening 
statements and yours as well is, you know, this has got to be 
done for health reasons. Let me bring you to a decision the 
President just made on the Ozone National Ambient Air Quality 
Standards where the President even acknowledged that EPA's 
regulations and specifically as it related just a couple days 
ago to ozone actually shouldn't go forward and asked you all to 
pull back. I would like to get your opinion, what is your 
reaction to the President saying your smog ruling is not a good 
move to make and asked you all to pull that back.
    Ms. McCarthy. The President issued a statement and it 
should speak for itself.
    Mr. Scalise. But you are the agency that is tasked with 
that rule. I mean, what is your opinion on it?
    Ms. McCarthy. Once again, the President made the decision 
and he asked the agency to pull back that rule, and clearly the 
agency will and we will work very aggressively on the next 
review, which is what he asked us to do, the most current 
science, and we will move forward in 2013 to look----
    Mr. Scalise. Hopefully you all take that approach with 
these other rules that are costing jobs.
    I yield back. Thanks.
    Ms. McCarthy. The chair now recognizes the gentleman from 
Virginia, Mr. Griffith, for 5 minutes.
    Mr. Griffith. Thank you, Mr. Chairman.
    I am a little concerned. Earlier today you said that you 
all are going through public comment and you didn't need any 
help with the legislature, and I am just curious about that 
statement. Did you really mean that?
    Ms. McCarthy. Well, what I meant was there an indication or 
an inference that this legislation was in response to a need 
that EPA expressed, and it is not.
    Mr. Griffith. So you understand that it is in fact the 
legislature's job that all of us, as many have already stated, 
it is our job to go out and listen to our constituents and then 
we face election each year. You understand that?
    Ms. McCarthy. And it is EPA's job to implement the laws 
that you enact.
    Mr. Griffith. And it is also our job then to review those 
laws to determine whether or not we believe it in the best 
interest of the United States and if the public believes that 
there is something we should do that we should change it which 
is why the Founding Fathers gave us a 2-year time and not a 
lifetime term. Do you agree with that?
    Ms. McCarthy. I would not presume to do your job.
    Mr. Griffith. And were you just getting a little testy with 
us when you said in Section 5 that you weren't sure who was 
being--who the burden was on, whether it was the industries or 
whether it was the air-breathing public. Was that just a little 
testy comment, or do you really believe that?
    Ms. McCarthy. I think I was trying to make a point about 
the lack of clarity in that language and the uncertainty that 
it would bring to the table and the potential it has to add 
uncertainty in the legal world that would preclude us from 
moving forward to achieve the benefit, the health benefits that 
the Clean Air Act intended.
    Mr. Griffith. But you wouldn't acknowledge that the line in 
section 5 that says the Administration shall impose the least 
burdensome refers back to the beginning of that paragraph where 
it says for each regulation promulgated?
    Ms. McCarthy. But whose burden should we look at? What we 
look at are the health benefits compared with the costs 
associated with the implementation of that rule and we maximize 
the benefits and we minimize the cost to the extent that we 
can.
    Mr. Griffith. But you said earlier, and I am just curious 
about it, because you said earlier that, you know, you weren't 
sure whether that--and the same thing you just said to me--you 
weren't sure who that applied to as to the burden and you said 
the air-breathing public, and I guess I am questioning that 
because the air-breathing public, we breathe out what you all 
have determined to be a pollutant, CO2, and I am wondering if 
that is some precursor to--I mean, I don't think so, I thought 
it was just a testy comment, but now I am getting some of the 
same stuff back. Is that a precursor to you all anticipating 
regulations on the air-breathing public because this paragraph 
clearly only deals with regulations promulgated in relationship 
to the Clean Air Act. Are you following me?
    Ms. McCarthy. I don't think so, but let me----
    Mr. Griffith. OK. Let me state to you then that it looks 
very clear to me it applies to regulations that you all--I 
don't think there is any question that that paragraph deals 
with regulations that you all implement----
    Ms. McCarthy. Oh, I think I misinterpreted----
    Mr. Griffith [continuing]. In Section 2A in the Clean Air 
Act----
    Ms. McCarthy [continuing]. Your comment. What I was----
    Mr. Griffith [continuing]. And so if you think it applies 
to the air-breathing public, you must be getting ready to 
regulate it.
    Ms. McCarthy. No, no. When the agency interprets burden, is 
it the burden to industry to comply or is it the health burdens 
associated with the pollution for the breathing public? That 
was my point. I apologize if I was indicating that I would be 
regulating individuals.
    Mr. Griffith. Well, I didn't think you were but then I have 
seen strange----
    Ms. McCarthy. That is certainly what I intended.
    Mr. Griffith [continuing]. Things coming out of the EPA, so 
I wasn't certain. That being said, you all don't think that 
there are any time problems for these industries? You are 
dealing with a number of them. We heard about Oregon and other 
places and you don't think there are any time issues. You think 
that we should stay, and in your responses to Congressman 
Dingell, you indicated that you thought the timelines should 
remain exactly the same and go into effect in April 
notwithstanding other questions have come up and said there is 
a problem here and you say we are working with them. Do you 
still think the timeline that you all have laid out is 
perfectly reasonable?
    Ms. McCarthy. I would tell you that administratively, we 
have the tools available to us to address the timeline concerns 
and we will certainly be looking at these with three out of the 
four rules. We have stayed them ourselves, and we are going 
through a reconsideration process. All I am suggesting is----
    Mr. Griffith. But I am correct that that reconsideration 
process has actually been objected to by certain groups and the 
courts. Is that not true?
    Ms. McCarthy. That is true.
    Mr. Griffith. And so there is a possibility that if the 
court rules that your reconsideration was not proper, that we 
are stuck with the March 2011 regulations. Isn't that true?
    Ms. McCarthy. The agency believes that that the authority 
that Congress has afforded EPA allows us to stay the rules in 
exactly the way we have done it and that we are not at----
    Mr. Griffith. But that is currently in the courts being 
thought out, so----
    Ms. McCarthy. As is most of our rules, yes.
    Mr. Griffith. But we don't have any guarantee unless we do 
something that we are not going to get stuck with the March 
2011 rules. Isn't that true? Knowing that the courts--that we 
can disagree with the courts but sometimes they rule in ways 
that we don't anticipate. Isn't that true?
    Ms. McCarthy. I do not believe that you are at risk of 
having a court tell you that we should be stopping our 
reconsideration process and completing it by April of next 
year.
    Mr. Griffith. But you would agree that any good lawyer has 
been wrong at some point in time as to what the courts might 
do, would you not?
    Ms. McCarthy. I have pointed that out a few times.
    Mr. Griffith. I yield back my time, Mr. Chairman.
    Mr. Whitfield. At this time I recognize the gentleman from 
Massachusetts, Mr. Markey, for 5 minutes.
    Mr. Markey. Thank you, Mr. Chairman, very much.
    Forty-nine years ago in September of 1962, President 
Kennedy issued an urgent call to the Nation to be bold. He said 
that we shall send to the moon 240,000 miles away from the 
control station in Houston a giant rocket more than 300 feet 
tall, the length of a football field, made of new metal alloys, 
some of which have not yet been invented, capable of standing 
heat and stresses several times more than have ever been 
experienced, fitted together with a precision better than the 
finest watch, and we did it, and we did it less than 7 years 
after that speech.
    Today we are holding a hearing on Republican legislation 
that essentially exempts the cement industry and industrial 
boiler sector from having to install existing technologies. 
Nothing has to be invented at all to remove mercury and other 
toxics from their smokestacks because evidently the can-do 
Nation that sent a man to the moon in under 10 years just can't 
do it when it comes to cleaning up air pollution using 
commercially available technologies that already are on the 
shelf today.
    Now, shortly after the 1996 Telecommunications Act was 
passed out of this committee, it became the law. We were 
transformed as a Nation from a black rotary dial phone Nation 
to a BlackBerry and iPad nation. This committee say we can do 
it, but can we install the best available technologies in 
cement kilns to reduce the amount of mercury poisoning in 
children's brains? No, that is just too hard. We can't find 
anyone smart enough to figure it out. Instead of installing 
commercially available technology on cement kilns, cement 
plants, we will just install a Portland cement shoe on the EPA 
and throw it in the river, and if the EPA doesn't die from 
drowning, the mercury will definitely kill it.
    Ms. McCarthy, 2 months ago the House considered a bill to 
ban compact fluorescent light bulbs. During debate on that 
bill, we were repeatedly told by the Republicans that the 
mercury vapors from those light bulbs is dangerous, and even 
that ``exposing our citizens to the harmful effects of the 
mercury contained in CFL light bulbs is likely to pose a hazard 
for years to come.''
    Now, the cement rule that we are debating here today alone 
would reduce mercury emissions, which the Republicans really 
care about, by 16,600 pounds per year. Now, there are three 3 
milligrams of mercury in one compact fluorescent light bulb, 
almost seven-millionths of a pound. So the cement rule will 
eliminate the same amount of mercury in 1 year as banning two 
and a half billion compact fluorescent light bulbs.
    Ms. McCarthy, what is the greater public health threat, the 
tons of mercury coming out of cement kilns that are being sent 
right up into the atmosphere or light bulbs?
    Ms. McCarthy. Based on the information provided, it is 
clear that it is cement.
    Mr. Markey. Cement. Well, I am glad that the Republicans 
can hear that. Cement is a greater threat because we have heard 
so much concern about light bulbs from them this year and 
mercury.
    Now, we have been told that all these bills do is to give 
EPA an extra 15 months to study and refine its proposals 
though, of course, that is on top of the 20 years it has been 
since Congress told the EPA to set these standards in the first 
place. Now, EPA asked the courts for an extra 15 months to 
refine its boiler regulations. Did EPA also ask for an 
additional 15 months to refine its cement regulations?
    Ms. McCarthy. No.
    Mr. Markey. Now, isn't it true that these bills actually 
remove any deadline for finalizing the rules?
    Ms. McCarthy. Yes.
    Mr. Markey. Do you agree that if the EPA for some reason 
chose not to finalize them for years, it would be virtually 
impossible to force the EPA to act?
    Ms. McCarthy. It would be unclear how.
    Mr. Markey. Now, the way I understand this part of the 
Clean Air Act, EPA basically grades on a curve. To get an A, 
you just have to do what the other A students do by installing 
the same commercially available technologies that the cleaner 
facilities have. Is that not right?
    Ms. McCarthy. Yes.
    Mr. Markey. So no one has to invent anything new in order 
to comply with the rule?
    Ms. McCarthy. This is existing equipment that can achieve 
these standards.
    Mr. Markey. I thank the chairman.
    Mr. Whitfield. Thank you.
    At this time I recognize the gentleman from Texas, Mr. 
Olson, for 5 minutes.
    Mr. Olson. I thank the chair, and first of all, as a member 
who represents the Johnson Space Center, I appreciate my 
colleague from Massachusetts with his comments about human 
spaceflight and the Johnson Space Center, and for all of you 
out there, that is an example of bipartisanship on Capitol 
Hill, so thank you for those comments.
    Assistant Administrator McCarthy, great to see you again, 
and thank you so much for coming here today. I appreciate your 
willingness to testify, and I appreciate your apology about the 
tardiness of your written testimony for the committee members, 
but my point is, and my only comment about that is, apologizing 
to me is important but you should apologize to the people of 
Texas 22, the people I represent. They have got many, many 
questions about what EPA is doing there and how it is impacting 
their business, and because we got this testimony in a tardy 
manner, I am not doing the best job I can representing them, so 
I appreciate your apology and your commitment to making sure 
this never, ever happens again. And that is all I have to say 
about that, as Forrest Gump would say.
    But I do have other things I want to say, and I am 
concerned that the EPA did not do their homework when they 
determined the maximum achievable control technology floor, and 
as I understand it and as we are going to hear in the panel 
after you, in many cases these standards are not achievable by 
real-world boilers. The 1990 Clean Air Act Amendments require 
the EPA to promulgate technology-based emission standards but 
it allows for the possible supplementation of health-based 
standards. In your opening statement, and this is a rough 
quote, you said that every American is entitled to healthy air 
and a job. The committee agrees with that, but there has to be 
some balance, and again, the Clean Air Act Amendments of 1990 
recognize that. Technology-based is the primary one balanced in 
some cases with supplementation by health-based standards. And 
so my question for you is, is there enough data out there to 
supplement health-based standards over technology-based 
standards for the hazardous air pollution sources?
    Ms. McCarthy. There is not enough information for us to 
make the decision under the law that using a health-based 
emissions limit would be sufficiently protective with an 
adequate margin of safety.
    Mr. Olson. OK. So if there is not enough data, how does the 
EPA determine and monetize the health benefits, positive health 
benefits that can be attributed to the boiler MACT rule?
    Ms. McCarthy. I think it is a bit of apples and oranges. A 
health-based emissions limit is something that would be 
proposed to us to take a look at that would identify risks 
associated with a health standard as opposed to technology 
being installed. We can clearly and have assessed the health 
benefits the same way the prior Administration did. We assess 
the health benefits associated with our rule, taking a look at 
what technologies are available and how those rules could be 
achieved using that technology. A health-based emissions limit 
wouldn't establish a limit. It would simply say everything is 
OK at this facility if you manage it in a particular way. We 
did not certainly feel that with toxic pollutants that we could 
do anything other than have a complete assessment as to whether 
or not that health-based limit would actually achieve the kind 
of health protections that are required under the Clean Air 
Act, and we simply didn't have that information to make that 
judgment.
    Mr. Dingell. Would the gentleman yield?
    Mr. Olson. I have got a couple more questions and I will 
yield back the remainder of my time, but one more question 
following up on that. So you said there isn't enough data to 
determine and monetize the health benefits that can be 
attributed to the boiler MACT rule. Just following up on my 
colleague from Virginia's comments about foreign sources. As 
you know, Texas is a border State. I mean, one-half of the 
southern border is the great State of Texas, 1,200 miles, and I 
am very concerned that many of the emissions that are coming 
across the border standards that our businesses in Texas are 
being held to the Clean Air Act standards, and you say that 
there is not enough data to supplement the health standards yet 
we are promulgating standards. Why can't we determine some sort 
of health standard for the emissions coming from foreign 
sources? Why do our businesses in the great State of Texas have 
to be penalized because they are being required the emissions 
that are somehow coming across the border, they are going to be 
in the line of fire. How come we can't separate that out and 
give them some sort of credit so we can keep the business right 
here in America?
    Ms. McCarthy. We actually do have a wealth of information 
and it is part of the public disclosure associated with this 
rule and others on what type of pollution is coming in from 
other parts of the world and we do not challenge our facilities 
to account for that or to reduce that but we do account for 
their own emissions and we do look at what technologies are 
available that are cost-effective that will achieve significant 
public health improvement.
    Mr. Olson. Well, just in summary, I will tell you that 
every time I go back home, the businesses back there, 
particularly the petrochemical businesses on the Port of 
Houston, feel like they are required to carry these emissions 
coming from foreign sources. It is unfair. It kills American 
jobs.
    I yield back the balance of my time.
    Mr. Dingell. Will the gentleman yield to me?
    Mr. Olson. I will yield, sir, but I have got a zero zero 
zero on the clock.
    Mr. Dingell. Madam Administrator, you are giving me in your 
comments to my colleagues the impression that you are going to 
come forward with decisions on rules, which you will put in 
place before the questions associated with those rules have 
been fully answered and before you can assure us that you are 
not going to have to run out very shortly and initiate a new 
set of rules. It strikes me that if that is the case, you are 
creating a serious problem both in terms of the administration 
of the law and politically for the agency. Can you assure me 
that you are not doing that and that when you conclude these 
rules that you will have then a rule which will be settled so 
that business can make the decisions and so that they will not 
have to run out and make new investments to satisfy a 
subsequent enactment of a new rule which will be made after the 
first rule has been completed?
    Ms. McCarthy. Mr. Dingell, perhaps I wasn't as clear in 
what I was speaking about. When I was talking about the health-
based emissions limit, which is I think what you are talking 
about, I believed that we were talking about the cement rule, 
which has actually been finalized, and the fact that in that 
rule we did tee up comment and we solicited comment on whether 
or not we could do a health-based emissions limit, and we asked 
for the data necessary to ensure that an emissions limit could 
be established that was lower than a technology limit, a 
technology-based limit that would be sufficiently protective. I 
was not speaking to the rules that are going to be 
reconsidered.
    Mr. Dingell. You have given me no comfort, Madam 
Administrator. I am driven to the conclusion that you are 
telling me that when you have completed this, there is a 
probability that you will initiate new efforts to come forward 
with a new rule under perhaps different sections of the Clean 
Air Act. I regard that as being an extraordinarily unwise 
action by the agency in several parts.
    Mr. Whitfield. The gentleman from West Virginia, Mr. 
McKinley, is recognized for 5 minutes.
    Mr. McKinley. Thank you, Mr. Chairman.
    I am trying to grasp all this, and I appreciate your coming 
back in. We have had some interesting discussions here in this 
committee with you. Go back to the issue that we brought up a 
minute ago about 1962. I certainly wouldn't take offense to 
that because it is something taken out of context. We weren't 
in the middle or the tail end of a recession in 1962, were we?
    Ms. McCarthy. I don't remember.
    Mr. McKinley. But we were someplace, you and I. but that 
was a different time, and I don't think anyone is saying that 
there is not a can-do ability, but right now we have 9.1 
percent unemployment. We just got announced last month that 
there were no job increases whatsoever across America. So our 
businesses are trying to make some decisions. They know they 
can replace the boilers. If he is correct that they are on the 
shelf, for right now I will accept that. I am not sure I am 
going to completely buy that but I will accept that premise. 
But they have to make a decision. They have to make a decision 
right now in this economy. And over the break, I had an 
opportunity to visit two lumber producers in West Virginia, and 
both of them pleaded with me to give us time, more time. They 
have gone to--they are talking to the banks. First they are 
saying we meet some standards now, we are not polluting under 
the old standard, we are meeting some standards, we are meeting 
Clean Air Act, we are meeting the EPA standards, we are meeting 
those standards, and for someone to tighten the bolt right now 
in this economy is threatening them because there is already 
one other major manufacturer in West Virginia lumber that went 
out of business due to this economy.
    We are hearing because of Dodd-Frank, some of the banks are 
not as anxious to loan money to the lumber industry now in this 
economy because it is a risky loan in this economy so there is 
some reservation for that. So they are asking us--the one 
company was $6 million, they have already got an estimate to 
make this replacement, and they are trying--how do I make this 
choice because their own analysis has said if they do make this 
investment, the likelihood of their company surviving over a 
period of time won't be. They know it is marginal right now. 
They have lost money for the last 2 years, and to go out and 
borrow $6 million more puts 600 people at risk, 600 people.
    So I am asking you, if you had--if you were sitting in that 
boardroom and you know that your company has lost money the 
last numbers of years, but yet the EPA is saying we want you to 
buy something off the shelf and put it in place and it is going 
to cost you $6 million and you probably are going to lose your 
600 jobs, what do you do? What would you do under that--what is 
wrong with their business decision to ask for a delay until 
this economy gets a little stronger and they can be more 
competitive? What is the matter with that?
    Ms. McCarthy. Mr. McKinley, I will tell you that EPA is 
certainly not oblivious to the economic challenges that we are 
all facing. If you look at the rules and the way in which we 
are evaluating our rules, we are doing a better job every rule 
to try to understand the economics----
    Mr. McKinley. What does he do in that boardroom?
    Ms. McCarthy [continuing]. To try to understand the jobs.
    Mr. McKinley. Ms. McCarthy, you have to make a decision 
because you are breathing down his neck.
    Ms. McCarthy. We have successfully through the 40-year 
history of the Clean Air Act found a way to grow the economy 
with significant----
    Mr. McKinley. Oh, you all said that. You said that before. 
You came in here and you said yourself that the EPA has 
actually created jobs and you said it here again today, and I 
am still waiting. I asked you then back in February if you 
could provide that information of how the EPA regulations 
create jobs, and I still don't have it. This is now September 
and I still haven't received that report of how your 
regulations create jobs. You said it here today. You said you 
are expecting job growth if the EPA standards were put into 
effect.
    Ms. McCarthy. That is correct.
    Mr. McKinley. What are we talking about? Construction jobs 
that last for 6 months but then put the 600 people out of work 
in my district? That doesn't work. I don't understand where you 
are going but you haven't still answered my initial--if you 
were in the boardroom, what would you do? Put your company 
under or would you let the people go?
    Ms. McCarthy. I firmly believe that we need to meet our 
economic challenges in a way that continues to grow the 
economy. That is my belief and I think we have done it and I 
think we can continue to do that.
    Mr. Whitfield. The gentleman from California, Mr. Bilbray, 
is recognized for 5 minutes.
    Mr. Bilbray. Thank you.
    Ms. McCarthy, how many years have you served at the local 
level administering the Clean Air Act?
    Ms. McCarthy. I served--well, I don't know whether I could 
say I administered the Clean Air Act but I worked at the local 
level for 11 years.
    Mr. Bilbray. OK. You know, I was one of the few people on 
this side of the aisle to support Mr. Markey's position on the 
light bulb issue but let me tell you something, after 16 years 
as a local administrator with the best scientists in the world 
in California, which you would admit that California----
    Ms. McCarthy. They are good, but I came from Massachusetts.
    Mr. Bilbray. That is why you adopt our fuel standards and 
supported our action to eliminate the ethanol-methanol mandate.
    Ms. McCarthy. Fair point.
    Mr. Bilbray. But my point being, I was a little taken aback 
that somebody in your position did not take the opportunity to 
point out to Mr. Markey that to compare ambient air and indoor 
air exposures is really inappropriate, especially with the 
challenges we have seen. And can we clarify the fact that there 
are major challenges in indoor air and we shouldn't be mixing 
those two up and giving the impression that somehow from the 
health risk point of view it is all the same?
    Ms. McCarthy. They are very different exposures.
    Mr. Bilbray. Thank you. I am very concerned about that 
because of science.
    Now, my biggest concern, as I look at things like the solid 
waste emissions regs where a company has to address the 
emissions for that day, but if you take the same waste and you 
put it off and bury it, those emissions have to be mitigated 
per day for the next 60 to 70 years, but there is no penalty 
for the fact that you are basically sending the emissions off 
to your grandchildren. It is almost like the regulations 
encourage people to do the environmentally irresponsible thing 
because on paper it looks good for that 24-hour period but in 
fact, in a lifecycle, you are actually having a cumulative 
impact and those emissions are going to be pollutant. It is 
that kind of regulation as an air regulator that I am just 
outraged that we are not brave enough to stand up and talk 
about and the environmental community activists and regulatory 
have walked away from it.
    I would ask you, what State has been more aggressive at 
moving regulatory oversight and mandates than the State of 
California when it has come to clean air?
    Ms. McCarthy. I would say that California has been very 
aggressive. It's air pollution challenges have been quite 
extreme.
    Mr. Bilbray. OK. And I will say this as somebody who had 
the privilege of doing that. I think people on my side of the 
aisle are in denial of the health challenges of environmental 
risk, but I have got to tell you something, when you stand up 
and give us the same line that California has been using for 
decades, that this will be great for business, we have gone 
from being the powerhouse in this country and the world, the 
California economy, to a 12 percent unemployment to the fact 
that you do not manufacture almost anything in California 
anymore, when we have gotten to the point where our scientists 
who are developing green fuel technology have to leave the 
State because they cannot get the permits or the ability 
financially to be able to produce it in the State. I just think 
that we are really in denial if you really think that 
California is wealthier, more prosperous and that the green 
technology is penciled out so much that it is now an example of 
the huge benefits of regulatory mandates actually helping the 
economy in the long run, and I just ask you to consider the 
fact that for those of us that don't have the cement 
manufacturing in my district--I don't. We are importing it from 
Mexico, the components for concrete. We don't talk about the 
mobile sources. And my question to you is this. Is there a 
consideration of the increased mobile sources if these plants 
break down? Because why not produce it in Kampichi and ship the 
cement up the river into these areas?
    Ms. McCarthy. There has not been a full lifecycle 
assessment of this, no.
    Mr. Bilbray. I bring up, we found out that by not doing a 
full lifecycle on things like ethanol, we realized we grossly 
underestimated the environmental impact because we did not do 
the full cycle. Don't you agree that there was a mistake made 
there?
    Ms. McCarthy. The only thing I would point out to you is 
that I think the comparison with California, looking at its 
National Ambient Air Quality challenges, and compare that to 
technology-based solutions that will drive toxic pollution down 
is not exactly an equal comparison.
    Mr. Bilbray. The equal comparison is the fact, though, that 
the projections of an economic boon from the enforcement of 
environmental regs was grossly overstated in California and 
historically has been overstated in the United States, and I 
will bring it up again: the great selling point of fuel 
additives that have been told by scientists in the 1990s that 
the Federal Government is making a mistake about, we continue 
to this day to follow that failed policy with the environmental 
damage and the economic damage caused by it, and we don't 
reverse it. My concern is not that we try new things or we make 
mistakes but when we try new things and make mistakes, we don't 
go back and correct it. It has been how many years since we put 
a clean fuel mandate out that everybody knows was a failure.
    Ms. McCarthy. We are moving forward with these rules 
because the Clean Air Act requires it. We are long delayed. 
There are significant public health benefits but we clearly 
look at the economy and ensure that we are doing it as cost-
effectively as we can and to assess the impacts.
    Mr. Bilbray. And I think you are denying the economic 
impact as much as you damn the other side for denying the 
environmental impact.
    Mr. Whitfield. At this time the chair recognizes the 
gentleman from Colorado, Mr. Gardner, for 5 minutes.
    Mr. Gardner. Thank you, Mr. Chairman, and thank you, Madam 
Administrator for being here today.
    A couple of questions. I appreciate your support that you 
give in your testimony for meeting deadlines and the importance 
of deadlines in the Clean Air Act, but I am concerned that not 
all deadlines are equal in the eyes of the EPA. The Clean Air 
Act has an express 1-year deadline for taking final agency 
action on PSD permits. However, when you look at drilling in 
offshore Alaska, some of these permits continue to languish for 
5 years. They have prevented us from accessing billions of 
barrels of oil that could make a long-term dent in gasoline 
prices in the United States. Why does the EPA pick and choose 
statutory deadlines that it feels to abide by?
    Ms. McCarthy. We actually try very hard to meet the 
statutory deadlines, and the 1-year deadline is one that we are 
doing everything we can to achieve. There are certainly 
challenges with ensuring that we get complete information so 
that the application can be assessed and we can move that 
forward. We work very hard with applicants to expedite 
permitting as much as possible.
    Mr. Gardner. Do you think some deadlines have more 
importance than other deadlines?
    Ms. McCarthy. I think that the law treats them all equally 
and I think we are equally obligated to do them.
    Mr. Gardner. But the EPA hasn't followed the law.
    Ms. McCarthy. We do our best to do that, to meet every 
deadline in the statute. Do we always succeed? Absolutely not.
    Mr. Gardner. Two months prior to announcing the boiler MACT 
rules, the EPA sought a 15-month extension to re-propose three 
of the rules. Do you believe it is accurate to assume that the 
EPA needed an extension because the rules needed more work?
    Ms. McCarthy. The rules actually changed significantly from 
proposal to final. We felt that they were legally vulnerable 
without entertaining more public comment and process associated 
with those changes.
    Mr. Gardner. So it needed more work?
    Ms. McCarthy. Say it again.
    Mr. Gardner. So it needed more work?
    Ms. McCarthy. It needed more public comment.
    Mr. Gardner. But just public comment, not more--oK.
    Ms. McCarthy. We are certainly opening up to more work 
because we solicited additional comment, and with more data, we 
will take a look at it.
    Mr. Gardner. In your statement, you stated in your 
statement that it is terrifically misleading to say that 
enforcement of the Clean Air Act costs jobs. Have you ever had 
a manufacturing facility tell you personally that it simply 
cannot comply with all the regulations coming out of the EPA?
    Ms. McCarthy. Many times.
    Mr. Gardner. Your testimony says that for every $1 million 
spent in environmental spending to comply with environmental 
rules, it creates 1.5 jobs. According to the forest products 
industry, $7 billion it will cost to comply with the boiler 
MACT rule. Are you then saying that that will create 10,500 
jobs?
    Ms. McCarthy. No, I am not, and I am also not indicating 
that----
    Mr. Gardner. Why would you----
    Ms. McCarthy [continuing]. I agree--I was actually quoting 
a study that looked at specific industry sectors, and that----
    Mr. Gardner. But you must agree with it if you put it in 
the statement.
    Ms. McCarthy. I agree that that literature has been peer-
reviewed and it is sound science, yes.
    Mr. Gardner. So then for every $1 million in spending, 
the----
    Ms. McCarthy. In those four sectors is what that----
    Mr. Gardner. And the paper and pulp industry, I believe, is 
one of the four sectors so you are saying that $7 billion----
    Ms. McCarthy. I am not indicating at all that I believe the 
numbers that industry has indicated it associated with the cost 
of these rules. These major source boilers will in no way is 
estimated using scientific peer-reviewed methods to cost 
anywhere near that figure.
    Mr. Gardner. Do you believe that these regulations 
altogether will put a number of operations out of business?
    Ms. McCarthy. I believe that there will be choices made by 
industry on how they will comply.
    Mr. Gardner. Including whether they stay in business or 
not?
    Ms. McCarthy. That is going to be their choice looking at a 
variety of factors, perhaps least of which is compliance with 
these regulations.
    Mr. Gardner. So the EPA's own number on boiler cost was $5 
billion, so that is just a little bit less than----
    Ms. McCarthy. No, actually the boiler cost was a little 
less than $2 billion.
    Mr. Gardner. That is the information I have was $5 billion 
from the EPA.
    Ms. McCarthy. That was actually the proposal. We have cut 
that in half using flexibilities under the law and looking at 
new data.
    Mr. Gardner. So later we are going to hear the president 
and CEO of Lehigh Hanson talking about a loss of 4,000 jobs. Do 
you believe that business owners are being disingenuous when 
they tell us that it is going to cost them 4,000 jobs?
    Ms. McCarthy. I don't want to attribute motive to anything. 
All I can tell you is under the history of the Clean Air Act, 
industry has significantly overstated anticipated costs and 
they have not come to be.
    Mr. Gardner. In your testimony, I counted the number of 
times where you say things like ``in contrast to doomsday 
predictions, history has shown again and again that we can 
clean up pollution, create jobs and grow the economy. Economic 
analysis suggests the economy is billions of dollars larger 
today.'' Let us see. ``Some would have us believe that job 
killing describes EPA's regulations. It is terrifically 
misleading. Investments in labor-intensive upgrades that can 
put current unemployed or underemployed Americans back to work 
as a result of environmental regulations. Jobs also come from 
building and installing pollution control equipment.'' Let us 
see. ``Contrary to claims that EPA's agenda will have negative 
economic consequences, regulations yield important economic 
benefits.'' Let us see. It goes on. You say, ``Moreover, the 
standards will provide these benefits without imposing hardship 
on America's economy or jeopardizing American job creation.''
    Late last month, President Obama withdrew the ozone 
standards. He said, ``I have continued to underscore the 
importance of reducing regulatory burdens and regulatory 
uncertainty, particularly as our economy continues to 
recover.'' Mr. Sunstein's letter to your agency said, ``The 
President has directed me to continue to work closely with 
executive agencies to minimize regulatory costs and burdens.'' 
Is he wrong then? Your testimony talks about creating jobs 
through environmental regulations. Was the President wrong in 
making that----
    Mr. Rush. Regular order, Mr. Chairman.
    Mr. Whitfield. The gentleman's time has expired. Did you 
want to respond?
    Ms. McCarthy. No, the President made a sound decision and 
the agency is following it.
    Mr. Gardner. A sound decision? He made a sound decision?
    Mr. Whitfield. At this time we will conclude the questions 
for the first panel, and Ms. McCarthy, we appreciate your being 
here today. As you remember, many of the members had questions 
and further comments that they would ask the EPA to respond to, 
so we look forward to your getting back to us with that 
information and our staffs will be working with you all to make 
sure that all of that is taken care of. So thank you very much.
    Ms. McCarthy. Thank you very much, Mr. Chairman.
    Mr. Whitfield. At this time I would like to call up the 
second panel. On the second panel today, we have Mr. Daniel 
Harrington, who is the President and CEO of Lehigh Hanson 
Incorporated. We have Mr. James Rubright, who is the Chairman 
and CEO of RockTenn Company. We have Dr. Paul Gilman, who is 
the Chief Sustainability Officer and Senior Vice President, 
Covanta Energy Corporation. We have Mr. John Walke, who is the 
Clean Air Director and Senior Attorney for the Natural 
Resources Defense Council. We have Mr. Eric Schaeffer, who is 
the Executive Director for the Environmental Integrity Project. 
We have Dr. Peter Valberg, who is the Principal in 
Environmental Health at Gradient Corporation, and we have Mr. 
Todd Elliott, General Manager, Acetate Celanese Corporation.
    So thank all of you for being here today. We appreciate 
your patience, and we look forward to your testimony. Each one 
of you will be given 5 minutes for an opening statement, and 
then we will have our questions at that point.
    So Mr. Harrington, we will call on you for your 5-minute 
opening statement. Thank you.

 STATEMENTS OF DANIEL M. HARRINGTON, PRESIDENT AND CEO, LEHIGH 
 HANSON, INC.; JAMES A. RUBRIGHT, CEO, ROCK-TENN COMPANY; PAUL 
  GILMAN, PH.D., CHIEF SUSTAINABILITY OFFICER, COVANTA ENERGY 
   CORPORATION; JOHN D. WALKE, CLEAN AIR DIRECTOR AND SENIOR 
 ATTORNEY, NATURAL RESOURCES DEFENSE COUNCIL; ERIC SCHAEFFER, 
 DIRECTOR, ENVIRONMENTAL INTEGRITY PROJECT; PETER A. VALBERG, 
   PH.D., PRINCIPAL, GRADIENT CORPORATION; AND TODD ELLIOTT, 
         GENERAL MANAGER, ACETATE, CELANESE CORPORATION

               STATEMENT OF DANIEL M. HARRINGTON

    Mr. Harrington. Thank you, Mr. Chairman. I am Dan 
Harrington. I am the President and CEO for Lehigh Hanson, and 
we are one of the United States' largest suppliers of heavy 
building materials to the construction industry. Our products 
include cement, brick precast pipe, ready-mixed concrete, sand 
and gravel, stone, and many other building materials. We have 
500 operations in 34 States and we employ about 10,000 people 
in the United States. Also, I am presently the Chairman of the 
Government Affairs Council of the Portland Cement Association, 
and our association represents 97 percent of the U.S. cement 
manufacturing capacity. We have nearly 100 plants in 36 States 
and distribution facilities in all 50 States. We also employ 
approximately 13,000 employees. I am here today to express 
strong support for H.R. 2681, the Cement Sector Regulatory 
Relief Act of 2011.
    The current recession has been too long and too deep, and 
it has left the cement industry in its weakest economic 
conditions since the 1930s. Domestic demand for cement has 
dropped by more than 35 percent in the past 4 years, and we 
have shed over 4,000 job in the United States. Although 13,000 
well-paying cement manufacturing jobs remain, and their average 
compensation of $75,000 a year, there are three EPA rules in 
particular which could force the loss of an additional 4,000 
jobs, as you heard a second ago. Specifically, the National 
Emission Standards for Hazardous Air Pollutants rule, or 
NESHAP, for the Portland cement industry, the commercial and 
industrial solid waste incinerator, CISWI, rule, and finally, 
the agency's change in the definition of solid waste.
    In the face of all the economic uncertainty that faces our 
great Nation, the industry welcomes the introduction of H.R. 
2681. It will mitigate regulatory uncertainty and place these 
rules on a more reasonable schedule. Second, it will enable our 
industry to continue to make capital investments in the United 
States that will preserve jobs. It will also give us time to 
resolve the differences with the EPA on individual compliance 
levels which will result in regulations that are fair, balanced 
and, most importantly, achievable. Moreover, it will provide 
the time necessary for the economy to recover to a point where 
the industry is able to invest in plant upgrades and cost 
reductions again.
    Earlier this year, the Portland Cement Association 
completed an analysis of the economic and environmental impacts 
of several final and proposed EPA rules, including those 
addressed by H.R. 2681. The study concluded that one rule alone 
would impose a $3.4 billion capital investment on an industry 
that generated $6.5 billion in revenues in 2010. Now, the EPA 
did its own cost analysis, and their statistics show that it 
would require a $2.2 billion capital investment. So whether it 
is $2.2 billion or $3.4 billion, it is significant capital 
investment, and no one has addressed operating cost increases 
due to the new equipment, which will be plus 5 to 10 percent 
over our current cost structure just to operate our plants in 
the future.
    Also as you have heard, 18 of our plants could close, and 
although the EPA downplays the consequence of job loss, these 
job losses, the realities are that these jobs will not be 
readily absorbed in the communities where most plants are 
located. Therefore, the multiplier effect takes place in our 
communities where contractors, service employers, raw material 
suppliers who feed our cement plants with goods and services 
and consultants no longer will have employment either to 
support the towns and villages where our cement plants are 
located. The agency also does not account for the impact of 
these closures outside the cement sector. Disruptions to the 
availability of supplies will have adverse impacts on our 
construction sector, which, as you know, has an unemployment 
rate of nearly 20 percent. If the economy rebounds, a decrease 
in domestic production will require an increase in imported 
cement, probably up to as high as 50 percent by the year 2025. 
All of that cement will be coming in from offshore sites from 
around the world.
    Two other rules, the so-called CISWI and related definition 
of solid waste, would force an additional four plant closures 
and add another $2 billion in compliance costs by 2015. 
Ironically, these also actually undermine the rulemaking that 
is in place for NESHAP and cause conflict in the two standards 
for us to choose which way to go or how to invest.
    The basic elements of the Cement Regulatory Relief Act, a 
re-proposal of the rules followed by an extension of the 
compliance deadline, provide a win-win opportunity for American 
workers and for the environment. This bipartisan bill is also 
consistent with the President's Executive Order issued earlier 
this year calling for reasonable regulations.
    I thank you for this opportunity to testify, and I welcome 
any questions as we go through the day. Thank you.
    [The prepared statement of Mr. Harrington follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Whitfield. Thank you, Mr. Harrington.
    Mr. Rubright, you are recognized for 5 minutes.

                 STATEMENT OF JAMES A. RUBRIGHT

    Mr. Rubright. Thank you, Chairman Whitfield, Ranking Member 
Rush and members of the subcommittee. My name is Jim Rubright 
and I am the CEO of RockTenn, and I am testifying today on 
behalf of the American Forest and Paper Association and 
RockTenn. RockTenn is one of America's largest manufacturers of 
corrugated and paperboard packaging and recycling solutions. We 
operate 245 manufacturing facilities and we employ 26,000 
people, well over 22,000 of whom are in the United States. I am 
here today to express support of RockTenn and the other AF&PA 
member companies for H.R. 2250.
    We need the additional time and certainty provided by the 
bill for many reasons. The EPA needs the time provided in this 
bill to write a boiler MACT rule that is achievable, affordable 
and based on sound science. Our companies need the time to 
develop compliance strategies which don't exist today in full 
and to implement the massive capital expenditure programs that 
will be required to comply with the rule and to do so once and 
to do so with certainty. Our country needs and deserves this 
bill in order to mitigate the adverse impact of boiler MACT and 
the related rulemakings on job growth and economic recovery.
    Please let me explain. First, a jobs study produced by the 
AF&PA by Fisher International finds that the boiler MACT 
regulations will result in significant job losses within the 
forest products industry. Specifically, the Fisher study 
concludes that the boiler MACT rules impose on top of the other 
pending regulations that will impact the forest products 
industry will put over 20,000 direct jobs only in the pulp and 
paper sector at risk. That is about 18 percent of the pulp and 
paper industry's total workforce. Adding the impact on 
suppliers and downstream spending manufacturing income puts the 
total number of jobs at risk at 87,000 jobs. When the boiler 
MACT rules are combined with other pending Air Act rules, and I 
have included an exhibit that shows 20 rules that we face over 
the next few years, the jobs at risk rise to 38,000 direct pulp 
and paper jobs and 161,000 total jobs.
    The economic consequences of these rules will be felt most 
keenly in communities that cannot afford further job losses. 
Most of our mills are located in rural communities where there 
are few alternatives for employees who see their mills close, 
and since 1990, in answer to one of the questions that was 
asked earlier, 221 mills have closed in the United States, 
costing 150,000 jobs. We need Congress's help to avoid this 
outcome.
    I would also ask you to bear in mind that RockTenn and its 
predecessors through mergers has already wasted $80 million 
trying to comply with the 2004 boiler MACT rule that was 
eventually vacated by the courts just 3 months before the 
compliance deadline.
    Let me cite the positive things that the bill does to help 
our companies. This bill will go a long way to see that the EPA 
has adequate additional time to promulgate a boiler MACT rule 
that is based on sound science. Earlier this year, as you know, 
the EPA was driven by court-imposed deadlines to issue a final 
boiler rule it knew was flawed. By giving the EPA time it needs 
to properly address this complex scientific and technological 
issues associated with boiler MACT to free us from the risk of 
litigation imposing an earlier effective date of that act, H.R. 
2250 will actually help avoid further delays, reduce the 
uncertainty which is going to follow from the certain 
litigation that will follow the adoption of the final rule and 
therefore reduce the risk to us of further wasted capital 
expenditures.
    The EPA's non-hazardous secondary material rules, which is 
a companion to the boiler MACT rule, will make biomass and 
other alternative fuels commonly used for energy in the pulp 
and paper industry subject to regulation as a solid waste. 
Please remember, our virgin mills generate about 70 percent of 
their total energy requirements from biomass recovered in our 
paper making. Classifying a part of this biomass as waste will 
dramatically increase the cost of compliance with these 
unnecessary burdens, likely resulting in the closure of many 
mills and causing many others to switch from biofuels to fossil 
fuels. The 3-year compliance period is too short and will again 
force our member companies to make substantial capital 
expenditures inefficiently and based on our current best 
guesses of what the final rules will provide. We estimate the 
boiler MACT will cost our industry $7 billion in capital, 200 
for RockTenn alone, and our annual operating costs will 
increase by $31 million. Based on the rule the EPA is 
considering, our suppliers can't even assure us that this or 
any amount of capital will make us fully compliant. We don't 
have the excess capital lying around to have a replay of the 
2004 boiler MACT rule fiasco. We need this bill to avoid this 
terrible result.
    Finally, we need this bill to make sure that the EPA's stay 
of the boiler MACT rule remains intact and is not reversed 
prematurely through court actions.
    Mr. Chairman and members of the subcommittee, I thank you 
for offering this bill.
    [The prepared statement of Mr. Rubright follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Whitfield. Thank you.
    Dr. Gilman, you are recognized for 5 minutes.

                    STATEMENT OF PAUL GILMAN

    Mr. Gilman. Thank you, Mr. Chairman and members of the 
committee. Thank you for the opportunity to be here. I speak to 
you today as an employee of Covanta Energy, which is one of he 
Nation's largest biomass-to-electricity producers. I also speak 
to you as a former Assistant Administrator of the EPA for 
Research and Science Advisor for the agency.
    We currently operate biomass facilities that will be 
affected by these MACTs. The fuel is largely agricultural and 
forestry residue, making us one of the more sustainable uses of 
biomass. Currently, we are walking an economic tightrope for 
those facilities. Two are in standby mode because we are having 
to balance high fuel prices with low power revenues. One of our 
facilities has been operating on an intermittent basis this 
year.
    As a company that operates under the Clean Air Act, we 
believe it is key to our being viewed as a good neighbor in our 
community, so we support it and we support its goals, but we do 
believe the EPA had a right to ask the courts for more time. We 
think the EPA had it right when they asked for more 
information, more data for the boiler and CISWI MACT rules. Not 
only did the paucity of data lead to some illogical outcomes in 
the regulatory process, it also meant that natural variation 
from boiler to boiler wasn't properly considered, and even sort 
of the breakdown of different technologies for comparison 
purposes wasn't done. Not only those things, but the method 
used by the agency to derive the emissions standard is 
seriously flawed. What they did was take pollutants on an 
individual basis and look at them across the various 
facilities, find the best emissions achievement and set that as 
a standard and then repeat the process. So the emissions 
standards were set really on a pollutant-by-pollutant basis as 
opposed to a facility-by-facility basis. This answers the 
question that Mr. Markey had as to why is it that achievable, 
currently existing technologies can't be used. It is because 
this pollutant-by-pollutant process has been undertaken as 
opposed to the plant-by-plant. It is like asking the Olympic 
decathlon champion to not only win the championship but then 
beat each of the individual athletes in the 10 individual 
contests to be beaten as well by that decathlete.
    The agency also applied some statistical treatment for the 
data that is really detrimental to our being able to achieve 
compliance under the standards. So for example, in evaluating 
the data, it set its emission levels what we call 99 percent 
cutoff point. What that does for commercial industry solid 
waste incinerator is mean that a typical one with two units is 
likely in every single year to have a 20 percent probability 
that they are going to fail one of the emission standards. Now, 
I can just tell you, that is not the way to be a good neighbor 
and that is not a way for me to keep my job if that is how I 
perform for my company. So it truly is achievable and it is not 
something that I think the agency would be pleased in the final 
outcome of.
    There are a set of issues that this bill would address in 
the question of the definitions of waste. One of the elements 
that is not under reconsideration by the agency and therefore 
can't be addressed in this process, Mr. Green and the gentleman 
from Oregon also spoke to these questions, we have facilities, 
biomass facilities in the Central Valley of California that 
will be made into incinerators by the rules because traditional 
fuels like stumps from orchards and construction and demolition 
debris would be reclassified as waste. What will be the outcome 
of that? We will send those C&D wastes off to landfills. It is 
actually something I was talking with the senior NRDC staffer 
about doing the exact opposite of just a week ago and we will 
leave the stumps in the fields for the farmers to burn. That is 
why the California Air Resources Board actually opined to the 
agency that it thought it was on the wrong track for these MACT 
rules, and I will submit their comments for your record and my 
statement at that point, Mr. Chairman.
    [The prepared statement of Mr. Gilman follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Whitfield. Thank you very much, Dr. Gilman.
    Mr. Walke, you are recognized for 5 minutes.

                   STATEMENT OF JOHN D. WALKE

    Mr. Walke. Thank you, Mr. Chairman and members of the 
subcommittee for the opportunity to testify today. My name is 
John Walke and I am Clean Air Director and Senior Attorney for 
the Natural Resources Defense Council.
    The two bills that are the subject of today's hearing 
weaken the Clean Air Act drastically to authorize the 
indefinite delay of toxic air pollution standards for 
incinerators, industrial boilers and cement plants. Worse, 
these bills rewrite the Clean Air Act and overturn multiple 
Federal court decisions to eviscerate strong toxic pollution 
standards that under current law must be applied to control 
dangerous toxic emissions from these facilities. Industrial 
boilers and cement plants are some of the largest emitters of 
mercury and scores of other toxic pollutions that are still 
failing to comply with basic Clean Air Act requirements for 
toxic pollution over 2 decades after adoption of the 1990 
Amendments. That is not responsible public policy.
    Were these standards to be delayed by even a single year by 
these two bills, the potential magnitude of extreme health 
consequences would be as follows: up to 9,000 premature deaths, 
5,500 nonfatal heart attacks, 58,000 asthma attacks and 440,000 
days when people must miss work or school due to respiratory 
illness. Yet H.R. 2250 blocks mercury and air toxic standards 
for a minimum of 3.5 years, causing an additional 22,750 
premature deaths, 14,000 nonfatal heart attacks and 143,000 
asthma attacks beyond what current law will prevent.
    By the same token, H.R. 2681 blocks mercury and air toxic 
safeguards for a minimum of nearly 5 years, causing an 
additional 11,250 premature deaths, 6,750 nonfatal heart 
attacks and 76,500 asthma attacks beyond what current law will 
prevent. EPA estimates that the value of the health benefits 
associated with the boiler standards and incinerators are 
between $22 billion to $54 billion compared with industry 
compliance costs estimated at only $1.4 billion. EPA has found 
the benefits of the cements standards to be as high as $18 
billion annually with benefits significantly outweighing costs 
by a margin of up to 19 to 1. Let me emphasize in the strongest 
possible terms that these bills are not mere ``15-month delays 
of the rules as EPA itself has requested'' as some have cast 
this legislation.
    First, the bills embody the complete evisceration of the 
substantive statutory standards for achieving reductions in 
toxic air pollution. The final sections of both bills eliminate 
the most protective legal standard for reducing toxic air 
pollution that has been in the Clean Air Act for nearly 21 
years. The two bills replace this with the absolute least 
protective measure even mentioned in the law. It is not 
defensible policy and represents overreaching beyond the 
representations of the bills' timing features. This single 
provision in both bills would have the effect of exempting 
incinerators, industrial boilers and cement plants from maximum 
reductions in toxic air pollution emissions in contrast to 
almost every other major industrial source of toxic air 
pollution in the Nation. Second, the bill eliminates any 
statutory deadlines for EPA to reissue standards to protect 
Americans. Both steps are unprecedented in this committee or in 
any other legislation introduced in Congress, to my knowledge.
    I hope you will not vote for these bills, but if members 
have already decided to do so, I respectfully appeal to your 
sense of honesty and decency to do at least this: please 
explain clearly to your constituents, to the church 
congregations in your districts, to all Americans, why you are 
voting to actively eliminate protections for children and the 
unborn against industrial mercury pollution and brain 
poisoning. Especially those among you that are on record for 
protecting children and the unborn in other contexts, please 
explain why there is a double standard where it is acceptable 
to actively dismantle existing protections for children and the 
unborn against industrial mercury pollution.
    In closing, I urge you not to weaken the Clean Air Act so 
profoundly and cause so much preventable premature deaths, 
asthma attacks and mercury poisoning. I welcome any questions 
about my testimony, especially regarding any disagreements 
about factual or legal characterizations concerning the two 
bills. Thank you.
    [The prepared statement of Mr. Walke follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Whitfield. Thank you, Mr. Walke.
    Mr. Schaeffer, you are recognized for 5 minutes for an 
opening statement.

                  STATEMENT OF ERIC SCHAEFFER

    Mr. Schaeffer. Thank you, Mr. Chairman and members of the 
committee for the opportunity to testify. I am Eric Schaeffer, 
Director of the Environmental Integrity Project, an 
organization dedicated to improving enforcement of our 
environmental laws. I support the testimony of my colleague, 
John Walke, who has spent so many years fighting for the Clean 
Air Act.
    My own comments can be summarized as follows. As has been 
explained I think a number of times, the proposed legislation 
would do much more than delay standards for 15 months. They 
would prohibit EPA from setting any standards in less than 5 
years after enactment of the legislation. They would authorize 
EPA to delay those standards indefinitely as in never, 
virtually do eliminate the deadlines, and they also change the 
basis for setting the standards, and those changes use language 
that the industry hopes will give them softer standards. These 
were arguments made in court that were rejected. The bill would 
give industry a second bite of the apple and change the way 
standards themselves are set, so this is not a short-term 
extension to deal with an economic emergency, it is a 
fundamental change to the law. I do not question the right of 
Congress to do that. It is absolutely the prerogative of the 
legislature. I just think it is important to be clear about 
what the bills would do.
    I also, to the extent--a suggestion has been made that the 
decisions reflect a rogue or runaway agency. I think that is 
unfair. The regulations that have been attacked in this hearing 
were generated by EPA after EPA first went to court to try to 
give industry in the last Administration much of what they 
wanted. Those earlier decisions were rejected by the D.C. 
Circuit Court of Appeals. They were rejected by judges 
appointed by President Reagan and by President George H.W. 
Bush, so this is not a sort of wild tear that EPA is on, this 
is an attempt to respond to decisions that have come down over 
the last decade made by pretty conservative jurists. Again, 
Congress has the right to respond to those by changing the law. 
I just think it is unfair to say that the EPA is somehow off 
the reservation by doing what the courts have in fact required 
them to do.
    Perhaps most importantly, I want to call into question this 
idea that if we relax standards and allow, you know, mercury 
emissions to stay the same or even increase, allow toxic 
emissions to increase, somehow that will be a significant force 
in reviving manufacturing, creating jobs, keying the economic 
recovery and conversely if we don't do that we are going to 
hemorrhage jobs, you know, lose manufacturing competitiveness, 
see a flood of imports, threaten the economic recovery. I think 
the effects are much, much more complicated than that. There 
big, big macroeconomic forces at work. If you look at the 
cement kiln in particular using statistics from the U.S. 
Geological Service, who carries these numbers in their minerals 
yearbook and updates them every year, in the early 1990s we 
produced about 75,000 tons of cement with 18,000 workers. That 
production rose about 30 percent by 2006 to nearly 100,000 
tons. What happened to payroll? Ten percent of the employment 
in the industry was cut, the point being that the manufacturers 
did fine, employees not well. Jobs were cut at those plants.
    Second, the industry has suggested that somehow these rules 
would drive the price of cement up and that will threaten the 
economic recovery. I just want to point out that the price rose 
about 50 percent at the beginning of the decade over a several-
year period. It didn't seem to have any impact on the 
construction boon, so I would treat that claim skeptically. 
Clearly, manufacturing has declined at these plants and so has 
employment over the last few years but imports have declined 
even faster, so this idea that imports are going to come 
rushing in where production is constrained is not borne out by 
the facts. I am just trying to make the point that the bottom-
line problem is lack of demand. Until the demand recovers, 
until the housing market recovers, this industry will not, and 
the rules have little to do with that.
    I just want to close by saying that while this bill gives 
certainty to the industry that they won't have to do anything 
for at least 5 years and maybe never, it provides no certainty 
to people who live around these plants that something will be 
done about toxic emissions. I have not heard that concern 
expressed today at the hearing. I hope you will give it careful 
consideration.
    [The prepared statement of Mr. Schaeffer follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Whitfield. Dr. Valberg, you are recognized for 5 
minutes for an opening statement.

                 STATEMENT OF PETER A. VALBERG

    Mr. Valberg. Thank you. Good afternoon, Mr. Chairman and 
members of the subcommittee. Thank you for inviting me to 
testify this morning. I am Peter Valberg, Principal at 
Gradient, an environmental consulting firm in Boston. I have 
worked for many years in public health and human health risk 
assessment. I have been a faculty member at the Harvard School 
of Public Health and I was a member of a National Academy of 
Sciences panel that worked on evaluating public health benefits 
of air pollution regulations.
    At the outset, let us remind ourselves that by every public 
health measure from infant mortality to life expectancy, we are 
healthier today and exposed to fewer hazards than every before. 
Our present-day air is much cleaner than it was years ago 
thanks to EPA, and our air quality is among the best in the 
world.
    I am here today to address the method by which EPA uses in 
their projection of benefits from reductions in outdoor air 
particulate levels, called PM 2.5, or ambient PM 2.5. The 
dollar value of EPA's calculated benefits is dominated by 
promised reductions in deaths that EPA assumes to be caused by 
breathing PM in our ambient air. Asthma is also monetized by 
EPA as an ambient air concern.
    In understanding health hazards, the solidity of our 
scientific knowledge like the solidity of a three-legged stool 
is supported by three legs of evidence. One leg is 
observational studies or epidemiology, another leg is 
experimental studies with lab animals, and the third leg is an 
understanding of biological mechanism. If any leg is weak or 
missing, the reliability of our knowledge is compromised.
    EPA uses the observational studies that examine statistics 
on two factors which in small part seem to go up and down 
together. These studies correlate changes in mortality, either 
temporally on a day-by-day basis or geographically on a city-
by-city basis with differences in ambient PM from day to day or 
from locale to locale. Statistical associations are indeed 
reported, and EPA assumes PM mortality associations are 100 
percent caused by outdoor PM no matter what the PM levels you 
may breathe in your own home, car or workplace.
    My points are, one, the mortality evidence doesn't add up; 
two, most of our PM exposure is not from outdoor air; three, 
the PM statistical studies cannot identify cause; and four, 
outdoor PM is recognized as a minor, not a major cause of 
asthma.
    The evidence doesn't add up. Lab experiments have carefully 
examined both human volunteers and animals breathing airborne 
dust at PM levels hundreds of times greater than in outdoor air 
without evidence of sudden death or life-threatening effects. 
Moreover, we have studied the chemicals that constitute the 
particles in outdoor air, and no one has found a constituent 
that is lethal when breathed at levels we encounter outdoors. 
Remember that the basic science of poisons, toxicology, has 
shown that the dose makes the poison.
    Where do people get exposed to airborne dust? The majority 
of our time is spent indoors. Homes, restaurants, malls have 
high levels of PM from cleaning, cooking, baking and frying. 
When you clean out your attic or basement, you are breathing 
much higher PM levels than outdoors. We are exposed to high 
levels of PM when mowing lawns, raking leaves, enjoying a 
fireplace. Yet in spite of these vastly larger PM exposures, we 
have no case reports of people who died because of the dust 
they inhaled while cleaning or barbecuing. We can identify who 
died from car accidents, food poisoning, firearms and 
infections, but out of the tens of thousands of deaths that EPA 
attributes to breathing PM outdoors, we can't pinpoint anyone 
who died from inhaling ambient PM.
    The models require intricate statistical manipulations. The 
computer models require many assumptions and adjustments. The 
results you get depend on the model you use, how you set it up 
and how many different tests you run. You need to correct for 
many non-PM pollutants as well as non-pollutant factors that 
may confound those PM mortality associations. It is not clear 
that all confounders have been taken into account, and mere 
associations cannot establish causality. For example, increased 
heat stroke deaths are correlated with increased ice cream 
sales but none of us would suggest that ice cream sales cause 
heat stroke. In fact, there are many examples where spurious 
associations have been observed and dismissed.
    Finally, on asthma, medical researchers recognize that 
respiratory infections, mildew, dust, dust mites, pet dander 
and stress each play a far greater role in asthma than 
pollutants in ambient air. Among urban neighborhoods sharing 
the same outdoor air, both childhood and adult asthma vary 
considerably by location, and doctors investigating these 
patterns point to risk factors such as obesity, ethnicity, age 
of housing stock, neighborhood violence. Most importantly, over 
past decades, asthma has gone up during the very same time 
period that levels of all air pollutants outdoors have markedly 
gone down. This is opposite to what you would expect if outdoor 
PM caused asthma.
    Finally, taken together, there are major questions about 
EPA's calculations of lives saved by small PM reductions in our 
outdoor air. Most importantly, neither animal toxicology or 
human clinical data validate these statistical associations 
from the observational epidemiology. How can it be that lower 
levels of exposure to outdoor PM are killing large numbers of 
people when our everyday exposures to higher levels of PM are 
not?
    Thank you. Thank you very much for this opportunity and I 
look forward to your questions.
    [The prepared statement of Mr. Valberg follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Whitfield. Thank you, Dr. Valberg.
    Mr. Elliott, you are recognized for 5 minutes.

                   STATEMENT OF TODD ELLIOTT

    Mr. Elliott. Thank you, Chairman Whitfield, Ranking Member 
Rush and members of the subcommittee for allowing me this 
opportunity to testify before the subcommittee on a topic of 
substantial importance to my company and to the manufacturing 
sector. Again, my name is Todd Elliott. I represent the 
Celanese Corporation, where I have worked in a variety of 
positions for over 23 years.
    Celanese is a Dallas, Texas-based chemical company with a 
worldwide presence and a workforce of more than 7,250 
employees. I am the General Manager of our global acetate 
business. Our acetate fibers plant in Narrows, Virginia, has 
been in operation since 1939 and is the largest employer in 
Giles County. The facility currently employs more than 550 
skilled workers and an additional 400 contractors. The acetate 
facility in Narrows, Virginia, operates seven coal-fired 
boilers today and six boilers and furnaces that burn natural 
gas. The site is impacted by the cumulative and costly impacts 
of the boiler MACT and other State and Federal air quality 
regulations.
    While we fully intend to comply with this regulation, it is 
very important for Congress and the EPA to understand that we 
compete in a global marketplace. If our costs become too high, 
we must look at other options, other alternatives, or otherwise 
we can no longer compete effectively in the marketplace.
     A recent study conducted by the Council of Industrial 
Boiler Owners suggested that the boiler MACT regulation could 
impact almost a quarter-million jobs nationwide and cost our 
country more than $14 billion. We respectfully encourage you to 
promote cost-effective regulations that help create a U.S. 
manufacturing renaissance that preserves jobs our Nation so 
badly needs.
    My remarks today will focus on two key ways in which H.R. 
2250 addresses industry's concern with the boiler MACT and 
directs EPA to develop requirements that are more reasonable 
but still will achieve the objectives of the rule. First, the 
compliance deadline of the boiler MACT should be extended to 5 
years. The current rule essentially requires boilers and 
process heaters at major facilities to comply with stringent 
new air emissions standards for hazardous air pollutants within 
3 years. Our engineering studies concluded that we will need to 
add emissions controls to our existing coal-fired boilers or 
convert those boilers to natural gas. Either alternative would 
require a very significant capital investment and time 
investment and could necessitate an extended plant outage while 
changes are implemented. The 3-year compliance window is too 
short a time to design, to install and commission the required 
controls or to convert to natural gas, particularly because the 
third-party resources with the necessary expertise will be in 
high demand as thousands of boilers would require modifications 
at the same time.
    At present, our Virginia facility has an existing natural 
gas line. However, this is too small as designed to deliver 
enough gas to meet anticipated demand if we convert to natural 
gas. Prior to operating new natural gas boilers, we would need 
to secure new gas sourcing, pipeline delivery contracts, design 
and permit and construct a new pipeline. This would be 
particularly difficult for a facility like ours which is 
located in a rural and mountainous area and would take at least 
3 years to install. Once natural gas is available to the 
facility, it could take another year to transition from coal to 
gas and to avoid a complete facility shutdown and the 
associated lost production and revenue. Extending the boiler 
MACT compliance deadline from 3 to 5 years as proposed in H.R. 
2250 would help ensure that Celanese and the manufacturing 
sector can achieve compliance.
    Second, the emissions standards must be achievable in 
practice. The current rule does not consider whether multiple 
emissions standards are achievable realistically and 
concurrently nor does it adequately address the variability of 
fuel supply or the real-world challenges of compliance with 
multiple standards at the same time. Under current 
requirements, compliance with these standards becomes an 
either/or exercise as it is often impossible to source a fuel 
that enables a manufacturer to meet all emissions standards at 
once. For example, we have been able to identify coals that 
meet either the hydrochloric acid or mercury emissions 
standards but not both. In addition, variations in the 
constituents of coal from the same mine or the same seam can 
further undermine efforts to meet stringent and inflexible 
standards.
    In summary, we support H.R. 2250 for the following reasons. 
It extends the compliance deadline to 5 years, which provides 
industry with enough time to identify and implement appropriate 
and economically viable compliance strategies and control 
operations, and it requires the EPA to take a more reasoned 
approach that emissions standards must be capable of being met 
in practice concurrently and on a variety of fuels before they 
are implemented.
    So on behalf of Celanese and our Narrows, Virginia, 
facility, thank you for the opportunity to provide these 
comments.
    [The prepared statement of Mr. Elliott follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Whitfield. Thank you, Mr. Elliott, and thank all of you 
for your testimony. I will recognize myself for 5 minutes of 
questions.
    All of you heard the testimony of Ms. McCarthy, and I would 
ask each one of you, is there anything in her testimony that 
you particularly would like to make some comment about? Dr. 
Valberg?
    Mr. Valberg. Yes. Well, I think that I want to just 
emphasize that I think EPA has done a very good job in cleaning 
up the air and so on and I am very much in favor of regulations 
that reduce air pollution. However, I think the problem is the 
monetization method. I mean, saying that these deaths are 
occurring as a consequence of small changes in outdoor air when 
in fact if you go to the medical community, we all have 
diseases that we get, all of us are going to die and so on, it 
is that monetization that I think is flawed and needs to 
include more of the scientific evidence besides just the 
statistical associations.
    Mr. Whitfield. Have you ever made those arguments with EPA 
that you question the way they calculate these benefits?
    Mr. Valberg. Yes, I have. I have testified before EPA on 
some of the Clean Air Science Advisory Committee meetings that 
they have had together with EPA staff, and I think that they 
have become quite enamored of the statistical associations.
    Mr. Whitfield. And how widespread is the concern about the 
community that you are involved with on the validity of the EPA 
studies?
    Mr. Valberg. Well, the statistical associations are just a 
correlation between numbers, so I don't know that there is 
necessarily a question about is the statistics being done 
wrong. I think if you look at the original studies by the 
authors themselves, you will see in the beginning that they say 
the hypothesis is that there is a causal effect between ambient 
particulate and mortality, and they all treat it in the 
original literature as a hypothesis that is being tested. I 
think what EPA has moved these associations to is into this 
regulatory arena where they are using them as reliable.
    Mr. Whitfield. But if there is no causal connection, that 
would really invalidate their claims of benefits, wouldn't it?
    Mr. Valberg. Yes, it would
    Mr. Whitfield. And that is a major issue, and I read your 
biography and you are a real expert in this area, and you have 
genuine concerns about that. Is that correct?
    Mr. Valberg. I think that the toxicology of the ambient air 
needs to be given more weight and that in fact our exposure to 
almost anything is dominated by other sources at school, at 
work, at home and so on, and ambient air needs to be as clean 
as possible. We in fact open the windows when we want to clean 
out the air in our offices or in our homes. But I think that 
attributing these hundreds of thousands of deaths to outdoor 
air is only supported by the statistical association.
    Mr. Whitfield. Well, you know, I think that is a very 
important point because we have had many hearings on these 
environmental issues and every time the representatives of the 
EPA will immediately run to the health benefits that you are 
going to prevent this thousand deaths, you are going to prevent 
premature deaths, you are going to prevent this many cases of 
asthma, you are going to prevent all of these things and yet 
from your testimony the very basis of a lack of causal effect 
would basically invalidate all the benefits that they are 
really depending upon.
    Mr. Valberg. Exactly, and in fact, there are some recent 
papers that refer to taking panels of people where you take 
them into the clinical setting, expose them to 100 or 200 
micrograms per cubic meter, see if you see any kinds of 
effects, and then you also look at people in the ambient 
environment where the concentrations are 10 to 20 micrograms 
per cubic meter, you still see the associations in the ambient 
environment but it is an effect that is occurring for other 
reasons besides the particulate matter itself because those 
people in the laboratory did not show the effects.
    Mr. Whitfield. You know, another concern that many of us 
have is that we have a very weak economy right now. We are 
trying to stimulate that economy, and while it is true that 
these boiler MACT and cement have not caused weakening of the 
economy, I have here a list of 13 new rules and regulations 
that EPA is coming out with, and the cumulative impact of that, 
it seems to me would definitely have an impact on our ability 
to create jobs. We are not arguing that it caused the loss of 
jobs but we are making the argument that at this particular 
time it creates obstacles in our ability to create new jobs. 
Would you agree with that, Mr. Harrington?
    Mr. Harrington. Yes, I certainly would. I definitely agree 
with that, that from my standpoint, back to your original 
question, there are two areas that we would disagree. First of 
all, MACT is not available across our sector. There are no 
proven engineering technical solutions to achieve the NESHAP 
standards. That is point one.
    Point two is, there is absolutely not going to be job 
growth due to NESHAP or CISWI, absolutely not, not sustainable. 
There will be--there might be a short-term change to a bunch of 
consultants or a bunch of laboratories who will do some tests 
as we begin our permit and the process that we always follow to 
comply and to do better than we possibly can hope to do but at 
the end of all that transfer moving around, there will be less 
plants, period.
    Mr. Whitfield. Mr. Rush, you are recognized for 5 minutes.
    Mr. Rush. Thank you, Mr. Chairman.
    Mr. Walke and Mr. Schaeffer, Dr. Valberg made some pretty 
controversial conclusions there. What do you have to say, each 
one of you? How do you respond to some of his assertions?
    Mr. Walke. Mr. Rush, I would be happy after the hearing to 
submit numerous, dozens upon dozens of peer-reviewed statements 
showing effects, associations between particulate matter and 
premature mortality that contradict the testimony of Dr. 
Valberg. There are National Academy of Science studies that 
contradict it. The Clean Air Science Advisory Committee peer-
review process and reports contradict those views. Those views 
are controversial because they are outlier views within the 
clean air scientific community. They were not accepted by the 
Bush Administration. They were not accepted by the Clean Air 
Science Advisory Council. They were not accepted by the Health 
Effects Institute reexamination of those associations. And I 
think it is important that that copious record of peer-reviewed 
studies be included in the record, and we could also invite Dr. 
Valberg to include studies since there wasn't a single one 
cited in his testimony that I saw.
    Mr. Rush. Mr. Schaeffer?
    Mr. Schaeffer. If I could briefly provide some context for 
the particulate matter decision-making at EPA. The science that 
EPA is proceeding from, again with an epidemiological study 
looking at particulate levels in 26 cities and comparing that 
to especially premature mortality and screening out the 
confounding factors that Dr. Valberg raised--diet, income, the 
other things that can step in and interfere with trying to 
establish a relationship between pollution and disease--the 
benefits in EPA's rulemaking you actually see in the hundreds 
of millions of dollars, those come from avoiding premature 
deaths. We can argue about what a life is worth, and I don't 
know if Dr. Valberg wants to go there, but those premature 
mortalities occur over a long period of time. You can't put 
somebody in a room and gas them with particulate matter in 15 
minutes or even a day and draw any conclusions from that. The 
point is the long-term exposure.
    Congress ordered EPA to get those epidemiological studies 
peer reviewed. The agency went to the Health Effects Institute 
at the end of the last decade, late 1990s. The Health Effects 
Institute did an exhaustive review of the PM science, concluded 
it was solid, that is, that the link between PM exposure, 
particulate exposure, mortality was very strong. The Bush 
Administration looked at the same issue in 2005, did an 
exhaustive review, reached the same conclusions.
    So to suggest that this is something that is being done 
with a pocket calculator or the confounding factors aren't 
being considered or that you can, you know, put a balloon over 
somebody's head and fill it with particulate matter or that 
because nobody has, you know, died from sitting in front of a 
fireplace, that means fine particles aren't a problem, 
honestly, those are outlandish statements. They are completely 
inconsistent with decades of science, not just a recent 
decision. You know, I challenge the witnesses to produce peer-
reviewed studies that show that, and we will certainly provide 
you with the data that EPA has gathered under three 
Administrations to establish that very strong connection 
between fine particles, not big chunky particles from 
barbecuing steak, fine particles, and death.
    Mr. Rush. I just want to really remind the committee that 
the Bush Administration did draft a report that was finalized 
by the Obama Administration, and it is called the Integrated 
Science Assessment for Particulate Matter, and this report 
evaluated the scientific literature on human health effects 
associated with exposure to particulate matter. It was based on 
dozens of peer-reviewed studies. It had more than 50 authors 
and contributors and literally scores of peer reviewers, and 
this report was also subject to extensive external review and 
commentary, and this scientific effort provides the basis for 
EPA's analysis of the effects of particulate matter. Were you 
referring to this report?
    Mr. Walke. Yes, Mr. Rush. It is dated 2009. I would be 
happy to submit it to the record, and it finds ``there is a 
causal relationship between PM-2.5 and mortality both for 
short-term and long-term exposures.'' That is in an EPA report 
dated 2009, but as you said, it reaffirms studies that were 
undertaken first under the Bush Administration.
    Mr. Rush. Thank you, Mr. Chairman. I yield back.
    Mr. Whitfield. Mr. Sullivan, you are recognized for 5 
minutes.
    Mr. Sullivan. Thank you, Mr. Chairman. I was going to see 
if Dr. Valberg would like to comment on what was just said.
    Mr. Valberg. Yes, I would. I think the associations that 
are reported by the statistics are indeed out there but I think 
that there are a lot of problems with those associations even 
beyond the fact that they are not reflected in laboratory 
experiments and even in clinical experiments. I think that the 
actual associations are after all on a day-by-day basis. The 
so-called time series studies look at day-by-day changes in 
particulate levels and look at day-by-day changes in mortality 
so they are looking at short-term things, and when you try to 
take that hypothesis to the laboratory, you can't validate it.
    The associations themselves have peculiar characteristics 
such as the steepness of the association. In other words, what 
kind of increment do you get with a given increment of 
particulate matter actually gets steeper as the air 
concentrations get cleaner. In other words, as particulate 
levels go down, this is reported time and time again in these 
associations, and this goes contrary to what you would expect 
on a toxicological basis. The association should in fact get 
stronger as the air gets dirtier and so that as you get the 
higher levels, then you are getting a larger effect because the 
dose makes the poison.
    So I think I don't disagree that there are many 
associations out there and in fact the very reporting of such 
associations in such a variety of diverse circumstances where 
the actual chemical composition of the particulate is quite 
different in a way is also something that actually does more to 
undermine their plausibility than to support it.
    Mr. Sullivan. Thank you.
    And this next question is for Mr. Rubright, Dr. Gilman and 
Mr. Elliott. EPA has maintained that boiler MACT rules will 
result in a net gain of jobs. Do you agree with the EPA that 
the net effect of EPA's boiler MACT rules as written will be to 
gain jobs in the United States?
    Mr. Rubright. Thank you for asking that question because we 
observe the jobs that will be created are temporary jobs 
associated with the installation and capital. The jobs that 
will be eliminated with the closure of facilities are permanent 
losses. So the net change is dramatically worse.
    Mr. Gilman. My observation would be, as they were 
promulgated, they won't have that effect. Our eight plants are 
sort of a microcosm of that. I would like to think that a 
dialog between yourselves and the agency would do, as has 
happened so many times in the Clean Air Act, result in a path 
forward that indeed could have least impact on jobs and provide 
for a cleaner environment as well.
    Mr. Sullivan. Mr. Elliott?
    Mr. Elliott. We would agree and echo the comments of the 
other panelists that we think about capital investment in 
various categories. We think about EHSA, or environmental 
health and safety capital, maintenance of business capital, 
revenue generation capital. We would categorize this capital as 
non-discretionary and it would be in a different league. So 
perhaps jobs on a temporary basis for engineering consultancy 
and potentially jobs outside of the United States.
    Mr. Sullivan. Thank you.
    Mr. Chairman, I would like to submit for the record an 
analysis referenced by Mr. Harrington, which was prepared by 
Portland Cement Association regarding the impacts of EPA's 
rules on the cement sector.
    Mr. Whitfield. Without objection.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Sullivan. Mr. Harrington, you have testified that EPA's 
recent rules affecting the cement sector could force the 
closure of 18 out of nearly 100 U.S. cement plants, or 20 
percent of the U.S. cement production capacity. Where are most 
of these cement plants located? Are they like in small towns, 
rural areas?
    Mr. Harrington. Yes, they are mostly in small towns in 
rural areas, and they are sprinkled throughout the United 
States. I mean, there is one in upper California. There might 
be one in Ohio. There could be one in upper New York State. 
There could be one in Illinois. So they are spread throughout 
the United States. They are always in small rural areas, as Mr. 
Rubright said, and it is a company town. It is not quite like 
it was in the 1930s and 1940s but that is sort of the 
environment that our plants are in.
    Mr. Sullivan. Will the employees at these facilities be 
likely to find new work elsewhere in their communities?
    Mr. Harrington. Anything is possible, and of course, we 
would like that to be the case, but the opportunities are very 
limited because they are high-wage jobs. Most of our employees 
are represented by collective bargaining agreement so they are 
union employees and they are well paid. They are highly skilled 
and they are very specialized for the plants and the equipment 
that we run, so just transferring that job knowledge is 
difficult. So it will be devastating to those communities.
    The other thing that we lose, and I am sorry to keep 
rambling here, but there are a series of small businesspeople 
and large industry that service our plants--contractors, 
engineers--sorry.
    Mr. Whitfield. No, go ahead.
    Mr. Harrington. Contractors, engineers, local wall material 
suppliers who may not be employees of our plant but who exist--
Pennsylvania, for sure--who exist because of our plants.
    Mr. Sullivan. Also----
    Mr. Whitfield. Your time is expired.
    Mr. Doyle, you are recognized for 5 minutes.
    Mr. Doyle. Thank you, Mr. Chairman, and thank you to our 
witnesses today. I think it is important that we have a well-
informed debate on these regulations with inputs from all 
sides.
    As many of you know, I represent Pittsburgh, which is in 
Allegheny County in southwestern Pennsylvania. Allegheny County 
is home to manufacturing industry, chemical industry, steel 
industry, energy industry and much, much more, and like all of 
you, many of these companies have voiced concerns to me with 
some of the regulations coming out of the Environmental 
Protection Agency. Most specifically, I have heard a great deal 
about the boiler MACT rules that we are discussing today.
    But let me first give you a little background on Allegheny 
County. Last year, the Pittsburgh Post Gazette ran a series of 
air pollution effects in the region called Mapping Mortality. 
In it, they told us in Allegheny County air pollutants are 
generated by 32 industries and utilities classified by the 
county health department as major sources because they emit or 
have the potential to emit 25 tons or more a year of a criteria 
pollutant, or 10 times or more of hazardous air pollution. The 
Post Gazette article went further to detail in Allegheny County 
and research mortality rates not only in our county but in the 
13 counties surrounding Allegheny County in and around 
Pittsburgh. This is what they found: that in all 14 counties 
that have heart disease, all 14 counties have heart disease 
mortality rates exceeding the national average. Twelve of the 
14 counties have respiratory disease mortality rates exceeding 
the national average. Three of the 14 counties have lung cancer 
mortality rates exceeding the national average, and 13 of 14 
have a combined mortality rate for all three diseases in excess 
of the combined national expected rates for the three.
    So as you can see, I have cause to take these regulations 
very seriously. I recognize that the boiler MACT rule issued in 
February wasn't perfect. I know that the industries in 
southwestern Pennsylvania are providing good-paying jobs for my 
constituents. But the mortality rates due to heart, respiratory 
and lung disease can't be ignored. For me and my constituents, 
the issue is not a political football that we should toss 
around in Washington. This is real and it is a matter of life 
and death.
    So I just have one question for Mr. Rubright, Mr. Gilman 
and Mr. Elliott. The Clean Air Act already gives you 3 years to 
comply with the possibility of a fourth year. If you can't do 
it in three, you can petition your State. I don't think the 
folks in my district believe that it should take 5 years or, in 
the case of this bill, 5 years being the minimum and we don't 
know what the maximum would be, to deal with reining in some of 
these pollutants, and I understand there are specific issues 
with the final rule and I think they need to be worked out, and 
I am for doing that, for EPA, sitting with you and working out 
these issues sufficiently when they re-propose the final 15 
months.
    My question is, once that is done, would you be willing to 
accept a deadline within the Clean Air Act of 3 to 4 years?
    Mr. Rubright. I would like to--there are a couple of 
things. First, relative to your indication of the health risks, 
please understand that particulate matter is already regulated 
under the National Ambient Air Quality Standards, and nine of 
the 10 virgin mills that we operate are currently in attainment 
zones and yet they are being regulated under a statute that 
wasn't intended to regulate particulate matter as a health risk 
as a particulate matter without regard to whether they are in 
an attainment zone or a non-attainment zone. So it is a rule 
that really is inapplicable in many respects to the current 
environment.
    Mr. Doyle. My question is, once they do this re-proposing 
of the rules and address some of these concerns, do you need 
more than 4 years to comply?
    Mr. Rubright. Well, certainly. I have already indicated we 
wasted $80 million to comply with the rule that was rescinded. 
You heard Ms. McCarthy testify that she doesn't know of a 
cement plan that can comply with the rules today. We know that 
2 percent of the pulp and paper mills today can comply with the 
standards that apply. Now, my understanding of the act is that 
maximum achievable control technology is what 12 percent of the 
existing mills can comply with. So do you think there is going 
to be litigation of this rule? I think this rule is going to be 
litigated and I think Ms. McCarthy's testimony is going to be 
admitted in that litigation. So we are going to have some 
period of time where again we are going to be required to spend 
money on a rule which is in litigation.
    So apart from the fact that our best technological people 
are telling me we can't do it in 3 years, I certainly know I am 
going to be doing in advance of the resolution of this rule. So 
think it just doesn't make any sense to spend money that in the 
face of----
    Mr. Doyle. Do you think it should be addressed at all? Do 
you think there is a health concern and that the concern over 
health warrants your company doing something to reduce these 
pollutants?
    Mr. Rubright. Please understand, where we understand that 
there is an identifiable health risk, we do everything we can 
today. What I am saying to you is, there is nothing we know we 
can do to comply with these rules, but I also have indicated 
that I think there is a scientific debate with respect to 
specific effects of particulate emissions of our plants in 
rural attainment areas.
    Mr. Doyle. Dr. Gilman?
    Mr. Gilman. I would say yes if one of those things that 
isn't part of the reconsideration process now because the 
agency feels constrained by prior judicial decisions, that is, 
the pollutant-by-pollutant approach versus the plant-by-plant 
approach. That is what makes these unachievable. That is what 
introduces a technological barrier to implementing achievable 
standards.
    Mr. Doyle. Mr. Chairman, you have been generous with my 
time. I appreciate it.
    Mr. Whitfield. Thank you.
    We have two votes on the floor and we only have like a 
minute left, Morgan, and I know some other members want to ask 
questions, so you all might as well just spend the day with us. 
So if you wouldn't mind, we will recess. We only have two 
votes, and the time is expired on the first one, so we will 
back, I would say in about 15 minutes, and we will reconvene 
and finish up the questions at that time. Thank you.
    [Recess.]
    Mr. Whitfield. I am going to now recognize the gentleman 
from Virginia, Mr. Griffith, for his 5 minutes of questions and 
then when you all come in we will go to you.
    Mr. Griffith. Thank you all very much for your patience 
with us. Sometimes we have to run off and cast votes, and I 
appreciate you all waiting.
    I do want to say that this is important legislation. Both 
pieces are extremely important to my district. I don't want to 
underestimate it but I also have to point out that in the 
hearings that we had earlier this year and the hearings that we 
have now, we have had testimony from people who employ folks in 
Giles County. Thank you, Mr. Elliott, as the largest employer 
in that county, which is in the 9th district of Virginia, which 
I am very proud to represent. We have had testimony from Titan 
America, which is a Roanoke cement facility, employs people who 
live in the 9th district of Virginia. We have had testimony 
from MeadWestVaco at their Covington facility, which employs 
people in the 9th district of Virginia. And we had testimony 
earlier today from Mr. Rubright of RockTenn, which employs 
people in the Martinsville area, which include people in the 
9th district of Virginia.
    So when folks say to me, you know, why do you get worked up 
about this and why do you charge in on some of these things, 
all I can say is that a lot of these folks didn't actually come 
from the 9th district of Virginia but they represent jobs in 
the 9th district of Virginia and they represent people who work 
there and people who are in the areas where we have double-
digit unemployment and, you know, I came off this break doing 
the Labor Day parade in Covington, which is sponsored by the 
union there, and last year they had the parade route lined with 
signs about fixing boiler MACT, so amongst all the political 
signs were, you know, we have got to fix boiler MACT, and so I 
am trying to do what my constituents want and what I think my 
constituents need in order to create jobs not only in the 
United States of America but in particular in the 9th district 
of Virginia, and I think that that is what the boiler MACT 
does, that is what the cement MACT bill that we have before us 
today for testimony.
    So, you know, I understand all of you want to be careful in 
the health side of it but when you face extensive unemployment 
in the regions that I have just mentioned and already have had 
announced lost jobs from other rules of the EPA in Giles County 
in particular and in Russell County within the 9th district of 
Virginia within the last 2 or 3 months, these are serious 
matters.
    And so I would ask you, Mr. Elliott, in regard to jobs, if 
you don't have the 5 years to comply--and you touched on it in 
your statement some about the fact that you don't have a big 
enough gas line to flip over to natural gas and you have a big 
river beside your facility as well. Exactly, you know, do you 
need the 5 years or is there a significant potential that those 
jobs because of costs may go elsewhere?
    Mr. Elliott. Well, I think all business management is 
tasked with continuous evaluation of options, you know, what 
are the best cases for growing and protecting our business, so 
we always look at alternatives, whether that is alternatives 
for our facilities in the United States or throughout the 
world. We like to focus on timelines. I know that is important. 
But that is part of the issue here. There was a lot of 
testimony about flexibility around fuel source, at least I 
talked about the unknown questions still or answers with 
respect to fuel source, fuel variability. That is very specific 
to coal. So we still--we are operating several coal-fired 
boilers today so we want to resolve whether we can sort out 
whether we can use certain coals to meet certain standards, so 
that is going to take some time. So I am happy to get into the 
specifics once we hear back from the EPA exactly how we will 
resolve that.
    That then sets the stage one way or the other whether we 
then have to look at Plan B. Plan B might be installation of 
natural gas boilers. That is yet another exercise, another 
engineering effort to then go into the work that would require 
a 30-odd-mile natural gas line through the mountains of 
Virginia ultimately. So that is another phase of work that 
requires engineering, requires estimates and timing and right-
of-ways and factors in as well.
    Then we get to the ultimate question which I think is where 
you are going, Mr. Griffith, and that is then what do you do, 
and really depends on the certainty around those choices, the 
costs and capital associated with those, the resulting 
operating costs of those decisions.
    Mr. Griffith. My time is running out, so let me cut to the 
chase.
    Mr. Elliott. Yes.
    Mr. Griffith. If you only get the 3 years, is it not true 
that you are more likely to have to make a decision to reduce 
jobs in Giles County than if you have the 5 years proposed in 
the bill?
    Mr. Elliott. Yes, I am not sure we could address the 
regulation as written within the time----
    Mr. Griffith. As written, you might have no choice but to 
move those jobs somewhere else no matter the longstanding 
commitment to Giles County which exceeds, what, 79 years?
    Mr. Elliott. Or significantly scale back operations, change 
operations, look at a footprint alteration.
    Mr. Griffith. Thank you, Mr. Chairman. I yield back.
    Mr. Whitfield. At this time I will recognize Mr. Olson from 
Texas for 5 minutes.
    Mr. Olson. I thank the chairman, and I have just got a 
couple of questions I just would like to pose to all the 
panelists, and a lot of this was targeted to Mr. Rubright, and 
of course he had to leave, but I have some concerns. Again, 
thank you guys for coming.
    Just to let you guys know where I am coming from, my dad 
spent his entire working career in the forest and paper 
industry, so I have seen, I know as Mr. Rubright said, that the 
industry has gone through some, quote, unquote in his 
testimony, trying economic times, and I have seen it firsthand. 
My father worked for a large paper company, Champion Papers. 
They had a mill there on the Houston ship channel. He worked 
for the longest part of his career at anyone place over a 
decade, and that facility no longer exists because it couldn't 
compete in the global market. Lots of reasons for that. But 
again, when I see the fact that they have lost thousands of 
jobs, they have this blank spot there along the Houston ship 
channel that is not being used to create jobs and turn our 
economy around, I get concerned. I get concerned that some of 
the regulations and that this Administration is pushing this 
Environmental Protection Agency, they are hurting our economy 
right here and inhibiting the growth of job creation that we 
were seeking to have.
    My question for all of you guys, are there any boilers in 
your facilities that in your experience are capable of 
complying with the boiler MACT standard issued by EPA in March 
of 2011? Anybody out there can hit the target right now? I will 
start at the end. Mr. Elliott?
    Mr. Elliott. I think it was acknowledged earlier, Mr. Green 
asked the question. In some cases we were actually identified 
by the EPA as having some of the top-performing units around 
that help set of the regulatory standards for hydrochloric acid 
and mercury. However, even our best performing boilers can't 
meet both simultaneously.
    Mr. Olson. But that was Mr. Green's point. You guys are the 
best performers and yet you can't hit the standards?
    Mr. Elliott. Yes, simultaneously.
    Mr. Olson. Dr. Valberg?
    Mr. Valberg. I would concede any type to the actual people 
who run the facilities.
    Mr. Olson. Well said. I do that a lot of times myself.
    Mr. Schaeffer?
    Mr. Schaeffer. I think you are addressing the question to 
companies that are operating boilers, so I will----
    Mr. Olson. Well, in your experience in the industry--I 
mean, you are obviously an expert witness. You are here to 
testify before this committee, so are you aware of any boiler 
out there that can comply with the standards right now?
    Mr. Schaeffer. Well, I went through the particulate matter 
standards, which are the surrogate for toxic metals, and it 
looked like an awful lot of facilities were currently meeting 
the standard. I haven't gone through all the limits to check 
that.
    Mr. Olson. OK. Mr. Walke?
    Mr. Walke. EPA has identified boilers that can meet the 
standards, and I will be happy to get that information to 
supplement the record. Natural gas boilers under the standards 
for major sources and area sources can easily meet the 
standards. They are simple tune-up requirements, really, not 
emission limits, and so we can supplement the record with that 
information as well.
    Mr. Olson. That side comment there, that makes my argument 
for why we need to increase natural gas production here in this 
country. EPA is trying to thwart that, at least having some 
study done on hydraulic fracturing, the process that has 
basically revolutionized the gas resource we have in this 
country. I mean, that is a great, great point that you made, 
Mr. Walke.
    Dr. Gilman?
    Mr. Gilman. The agency is on the right track for the 
smaller boilers, the area source boilers. It is the large 
boilers and the problem goes back to this, you don't get to 
just pass one emissions standard, you have to pass them all, 
and you have to be the best at all, and none of our 
facilities--if we put in the best technology available today, I 
can't guarantee to my management that we will meet the 
standard. So as long as we are evaluating these emissions 
standards on this pollutant-by-pollutant basis rather than 
looking for the overall performance of the plant, we won't make 
it.
    Mr. Olson. That sounds like an issue we are having with the 
EPA in terms of flexible permitting process for our refineries 
and our power plants. We are basically--our system in Texas had 
five different regulated sources, emission sources. We could be 
over in one but we had to be significantly under in the other 
four so that the combination was what really matters and 
unfortunately EPA has taken that from us, and it sounds like 
that would be something very beneficial to you, Dr. Gilman, 
some system like that.
    Mr. Harrington, down at the end, last but certainly not 
least, sir.
    Mr. Harrington. I really can't comment on the boilers but I 
can comment on the cement, and there is not one plant in the 
United States that meets the NESHAP regulation because of the, 
as Dr. Gilman pointed out, the four specific elements. We might 
be good in one, bad on another, not too good here, good over 
there, and it varies from coast to coast from the top of the 
border to the bottom of the border across the United States.
    Mr. Olson. So a flexible permitting system like we had in 
Texas would address your concerns as well?
    Mr. Harrington. It would be a great help.
    Mr. Olson. And again, it has been demonstrably cleaner air 
since the system has been in process 15 years, and again, last 
year the EPA took it over from us.
    I have run out of time. I thank the chair. Yield back.
    Mr. Whitfield. Mr. Green, you are recognized for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman.
    Mr. Walke, in your testimony you write that it is important 
to recognize the EPA always has set maximum achievable control 
technology standards on this very same pollutant-by-pollutant 
basis for the over 100 MACT standards it has set under each 
Administration since adoption in the 1990 Amendments. You go on 
to say that the plain language of the Clean Air Act compels the 
EPA pollutant-by-pollutant approach and industries' contorted 
arguments that have not succeeded in court or appeals to 
different Administrations should not be embraced by Congress to 
produce dramatically weaker emissions standards. But how do you 
reasonably do a pollutant-by-pollutant approach without ending 
up with what has been termed a Franken plant, a plant that even 
with some of the top performers like Mr. Elliott's in Virginia 
are not in compliance?
    Mr. Walke. Well, you do it with pollution control measures 
that are able to successfully meet all the limits as has been 
the case in those 100-plus standards including for oil 
refineries and chemical plants in Texas, Mr. Green, and, you 
know, this argument just strikes me as kind of a straw man 
since it is never been one even taken seriously by, you know, 
three Bush Administration terms or two Clinton Administration 
terms because those standards were all able to be met without 
resulting in the apocalyptic consequences that people are 
claiming.
    Mr. Green. Well, some of your colleagues on the panel talk 
about they cannot design, install and commission emissions 
controls on their existing coal-fired boilers within 3 years. 
They claim that it is particularly true because third-party 
resources with expertise to design and install these controls 
will be in high demand as multiple boiler rules are being 
implemented in a short-term period of time by both the industry 
and electric utility industries. Do you share that concern?
    Mr. Walke. Well, that is a very different concern, and if 
there are concerns about the ability to install the controls 
within 3 years, the Clean Air Act provides an additional year, 
an fourth year for that happen.
    I would like to note in responding to a question that Mr. 
Whitfield asked earlier of the panelists, EPA is slated to 
finalize this boiler stands in April of 2012. If you listen 
carefully to what Ms. McCarthy said, it is within their power 
to extend the compliance deadlines to start 3 years from that 
period with an additional fourth year for this additional 
period of controls that I just mentioned. So we are already 
looking at 2016 under the Clean Air Act, which is exactly 5 
years from now, from 2011. The Clean Air Act has the 
flexibilities and the administrative tools necessary to allow 
EPA to give sufficient time to comply with these standards, and 
I think we should let that responsible process work.
    Mr. Green. Mr. Harrington, some of my cement companies have 
talked about how the subcategorization of the fuels is the crux 
of the issue for their industry and that EPA should have used 
better discretion here. Do you agree with this statement, and 
if so, can you elaborate?
    Mr. Harrington. It is very much a plant-by-plant decision 
and issue. We do agree with subcategorization. A lot of the 
issue still comes back to uncertainty--will it be accepted, 
will it not be, is there a positive dialog where real, true 
information is passed back and forth and is accepted. So we can 
have dialog and we can propose different things and there is 
always politeness and a spirited and professional discussion 
but then we go back and then things don't happen. So we 
continue to look at the clock and look at the calendar and 
understand what the regulations are and have to go back and 
plan for our fuel sources, for our capital investment needs, 
even how we operate our kilns. So I do agree with that issue.
    Mr. Green. Mr. Elliott, in your testimony you say that 
making it cost prohibitive to burn alternative fuels, the 
current rule would force industry to pay excessive prices for 
natural gas will curtail production. I know that natural gas is 
the cheapest it has been for decades almost now and can you 
elaborate on that?
    Mr. Elliott. Well, this is a particular note around 
curtailment, and we would like it to be more clear ultimately 
in the regulation that if, for example, a plant like ours 
converts to natural gas, if we have to curtail for residential 
heating or something like that, that we would have the 
wherewithal to convert temporarily to a backup fuel like fuel 
oil, for example, and that we would not then have to meet 
specific regulation standards for that particular source of 
fuel. So it is a very specific point around curtailment and 
flexibility on a temporary basis to have that flex fuel option, 
and I think that is probably fairly common with industrial 
boiler operators.
    Mr. Green. Well, I would hope we have enough natural gas 
now that has been developed that we wouldn't have to worry 
about curtailment, particular in fuel oil, because I know that 
is also another issue on the East Coast.
    Mr. Elliott. It is just not crystal clear at this point 
that that flexibility exists.
    Mr. Green. Thank you.
    Thank you, Mr. Chairman.
    Mr. Whitfield. Thank you, and I see no one else, so I want 
to thank all of you for taking time and giving us your expert 
opinions on these pieces of legislation. We look forward to 
working with all of you as we consider whether or not we are 
going to move forward with them.
    With that, we will terminate today's hearing, and we will 
have 10 days for any member to submit additional material and 
questions.
    So thank you all very much for being with us today and we 
appreciate your patience.
    [Whereupon, at 2:22 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
